        UNITED STATES DEPARTMENT OF STATE
        AND THE BROADCASTING BOARD OF GOVERNORS
        OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT
TO THE CONGRESS
April 1 to September 30, 2012
     Summary of OIG Accomplishments

Financial Results
Questioned costs
  Issued during the reporting period                                  $4,699,574
  Management decision during the reporting period                   $28,814,801
Recommendations for funds to be put to better use
  Issued during the reporting period                                 $7,346,447
  Management decision during the reporting period                   $124,329,189
Investigative monetary recoveries                                    $8,042,775


Investigative Results
Cases opened                                                                 51
Cases closed                                                                 81
Judicial actions                                                             13
Administrative actions                                                        3
Contractor/grantee suspension and debarment actions                          20
Hotline and complaint activity                                             1,193


Reports Issued:                                                               65




                      Requests for additional copies
               of this publication should be addressed to:
                         OIG-Reports@state.gov
                  Department of State Publication 11462
                        Office of Inspector General



                   Cover photo: Colonnade Street, Jerash, Jordan.
                                TABLE OF CONTENTS

MESSAGE FROM THE DEPUTY INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . 1
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


DEPARTMENT OF STATE
  OFFICE OF AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
  OFFICE OF INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
  OFFICE OF INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
  APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
  APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES . . . . . . 53
  APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS . . . . 57
  APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS . . . . . . . . . . . . . . . . . 73
  APPENDIX 6: PEER REVIEWS OF OIG OPERATIONS . . . . . . . . . . . . . . . . . . . . . . 75


BROADCASTING BOARD OF GOVERNORS
  OFFICE OF AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79
  OFFICE OF INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81
  APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83
  APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 85
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES . . . . . . 87
  APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS . . . . . 89


CONGRESSIONAL AND PUBLIC AFFAIRS ACTIVITIES . . . . . . . . . . . . . . . . . . . . . 91
ABBREVIATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 97




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012                                   ii
iii   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
MESSAGE FROM THE DEPUTY
INSPECTOR GENERAL

                            I am pleased to present to Congress the Office of
                            Inspector General (OIG) Semiannual Report for the
                            Department of State (Department) and the Broadcasting
                            Board of Governors (BBG). This report covers the period
                            ending September 30, 2012, as required by the Inspector
                            General Act of 1978, as amended.
                           I often tell OIG employees that taxpayers count on us
                           to be fact finders and truth tellers. Our responsibility
                           requires that we tell the truth to all of our stakehold-
  Deputy Inspector General ers: the Department, BBG, members of Congress, and
     Harold W. Geisel      the American public. We tell truths to ensure that U.S.
                           Government funds are treated with the same mindful-
ness that taxpayers use with their own paychecks. We tell truths because we are an
independent oversight entity, and our work must be objective and reliable. We tell
the truth even in the most difficult of times so that we hold ourselves to the same
standards of integrity and accountability that we use to measure others.
During this reporting period, OIG’s findings emphasized the need for strong
leadership and contract management. Assessments of leadership practices in the
Department showed areas of strength and room for improvement. OIG found the
Bureau of Counterterrorism’s leadership to be well respected for their expertise,
teamwork, and policy innovation, and mission leadership at Embassy Islamabad
was exemplary in managing a series of volatile events. However, a previous recom-
mendation issued to the Department to address leadership and management defi-
ciencies at posts and bureaus was not adequately addressed.
OIG also found multiple deficiencies in contract administration and oversight, and
our increased investigative focus on contract fraud resulted in some 20 suspensions
and debarments against Department contractors and grantees during the reporting
period. An audit of global climate change programs found the need for improve-
ment in the administration and monitoring of grants, while a compliance review
of trafficking-in-persons violations determined that an Embassy Riyadh contractor
did not provide adequate information to its employees on its trafficking-in-persons
policy, contracting practices, and labor laws. Inadequate processing to close out
grants was also cited for Embassy Paris and Embassy Caracas.
As security becomes paramount in these times of rapid change, OIG’s oversight
of Department security programs and operations takes on increasing importance.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   1
    An audit of the Department’s Border Security Program found a program structure
    that lacked defined roles, and not all funding decisions being made with prioritiza-
    tion factors. As the result of a followup review, OIG recommended that Mission
    Islamabad review the impact of Pakistani Government harassment of employees
    and obstructionism on operations and security and advise the Department on how
    the United States should respond. OIG determined that the Department should
    include this issue in high-level dialogue with the Government of Pakistan. OIG
    will continue to focus on areas of concern as we embark on oversight work to help
    rightsize missions in Iraq and Afghanistan.
    OIG is driven by the opportunity for improvement, and our bottom line is to
    provide the clearest possible picture to those who seek it.




                                              Harold W. Geisel
                                              Deputy Inspector General




2   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
EXECUTIVE SUMMARY

The auditors, inspectors, investigators, and other professionals in OIG promote effec-
tive management, accountability, and positive change in the Department, BBG, and
the foreign affairs community. During this reporting period, OIG issued 65 reports
with recommendations to improve Department and BBG programs and operations,
and identified more than $20 million in cost efficiencies, including funds to be
put to better use, questioned costs, fines, and recoveries. A full list of reports issued
during this period can be found in Appendix 2 of each agency section of this report.
This Semiannual Report to the Congress summarizes work carried out by OIG during
the period April 1 through September 30, 2012. OIG addresses classified issues in
the Classified Annex to the Semiannual Report.



AUDITS
In an audit of the Department’s administration and oversight of funds dedicated to
address global climate change, OIG reviewed a sample of approximately $214 million
programmed by the Department from FYs 2006–2010 for global climate change
programs. OIG determined that management needed to provide greater attention to
improving the administration and oversight of climate change programs. Without greater
attention to the comprehensive administration and monitoring of grants and interagency
acquisition agreements, the Department may not always have reasonable assurance that
funds for climate change are being expended in accordance with Department policies;
that the recipient performs program activities as stipulated in the awards or agreements;
and that the program’s indicators, goals, and objectives are being achieved. To improve
the administration and oversight of climate change programs, OIG made 18 recommen-
dations, to include ensuring that $600,000 in Economic Support Funds awarded to the
U.S. Agency for International Development is properly accounted for
OIG conducted an audit to determine to what extent the consular fees collected in
support of the Department’s Border Security Program were used for mission priori-
ties and in accordance with Department guidelines.  Overall, OIG found that the
program did not have a centralized program management structure.  In addition, the
program-related roles and responsibilities were not clearly defined, funding deci-
sions were not based on prioritization factors, and overall accomplishments were
not being tracked.  The lack of sufficient Department guidance on allowable border
security expenditures and limited adherence to guidance increase the likelihood that
improper payments could be made or that waste, fraud, or abuse could occur and not
be detected.  OIG made seven recommendations to improve the Department’s Border
Security Program.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   3
    OIG performed a compliance review to assess the Department’s actions to implement
    the seven recommendations contained in the OIG report Performance Evaluation
    of Department of State Contracts to Assess the Risk of Trafficking in Persons Violations in
    Four States in the Cooperation Council for the Arab States of the Gulf  (MERO-I-11-06),
    and to determine whether those recommendations should be closed or reissued. OIG
    determined that the Department had taken sufficient actions to close three of the
    seven recommendations. OIG reissued the other four recommendations because
    Embassy Abu Dhabi, Embassy Kuwait City, Embassy Muscat, and Embassy Riyadh
    collectively had not taken sufficient actions to require contractors to: provide work-
    ers with required employment information and Department policies; comply with
    local labor laws; and follow contract solicitation protocols. OIG issued a new recom-
    mendation for Embassy Riyadh to improve housing conditions for staff at Consulate
    General Dhahran, and two new recommendations to the Office of the Procurement
    Executive to clarify recently issued policies on monitoring contracts for trafficking in
    persons and for prohibiting contractors from retaining workers’ passports.



    INSPECTIONS
    OIG’s Office of Inspections issued reports on inspections of 7 domestic bureaus, 16
    overseas missions, 16 classified annexes, 3 compliance followup reviews, and 5 special
    reviews. Recommendations in these reports could result in savings or funds to be put
    to better use of approximately $5 million. The Office of Inspections also documented
    several innovative practices as a model for other embassies and bureaus to use to
    promote efficiency and effectiveness.
    OIG inspected the Department’s Bureau of Counterterrorism (CT) as well as the
    Bureau of Diplomatic Security, Office of Antiterrorism Assistance (DS/T/ATA).
    In January 2012, the Department elevated the Office of the Coordinator for
    Counterterrorism to its own bureau to expand the Department’s capabilities in coun-
    terterrorism and to allow more effective coordination with other agencies. CT was
    doing a commendable job shaping and executing the Department’s counterterror-
    ism policy. OIG recommended improvements to assist CT with ongoing challenges
    associated with establishing itself as a bureau and implementing a major reorgani-
    zation. OIG also recommended measures to enhance cooperation between CT and
    DS/T/ATA in managing the global Antiterrorism Assistance Program.
    OIG also inspected the Office to Monitor and Combat Trafficking in Persons
    (J/TIP). The office led U.S. Government efforts to reduce trafficking worldwide.
    J/TIP’s working relations within the Department had improved over the past 2 years,
    but fundamental tensions hindered collaboration on anti-trafficking and contributed
    to poor resource allocation. In executing its interagency coordination mandate, J/TIP
    led efforts to define objectives and to forge collaboration to improve training, aware-
    ness, and coordination.


4   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
In 2010, OIG issued a memorandum recommending that the Department devise a
system to regularly assess post and bureau managers and to take appropriate measures
to address leadership and management deficiencies. In 2012, OIG found that the
majority of ambassadors, deputy chiefs of mission (DCM), and principal officers
were doing a good to excellent job, but that shortcomings described in that 2010
memorandum persisted. OIG recommended that the Department institute a system
to assess leadership and develop a Foreign Affairs Handbook on leadership and
management principles.
Overseas, OIG’s followup review at Embassy Islamabad noted that mission leadership
deserved credit for its role in managing the fallout from a series of major events in
2011, including the assault against Osama bin Laden’s compound. Embassy report-
ing clearly assessed realities in Pakistan and provided sober advice to Washington;
however, embassy leadership needed to assess the implications of the changing
relationship between the United States and Pakistan so that decisions could be made
on program and operating budgets, and staffing and construction plans. Official
Pakistani obstructionism and harassment of employees, an endemic problem, was
impairing mission operations and program implementation and impacting security.
The mission struggled to program more than $2 billion in annual funding for devel-
opment and security assistance and to manage staffing increases and housing needs.
The public affairs program had initiated a creative effort to counter violent extrem-
ism, which may serve as a model elsewhere.
At Embassy Nairobi, OIG inspectors found the Ambassador had lost the respect and
confidence of the staff. Of more than 80 chiefs of mission inspected in recent cycles,
he ranked last for interpersonal relations and next to last on managerial skill and
attention to morale. He had damaged the cohesion of the country team, set a tone
that discouraged collaboration, and failed to engage key Kenyan officials. He estab-
lished tasks that consumed considerable staff time but were outside priorities in the
embassy’s annual Mission Resource Request. His initiative to redirect nearly
$550 million in U.S. health assistance, for example, was disruptive to existing
programs. The Ambassador also was reluctant to accept U.S. Government decisions
concerning the safe-havening in Nairobi of families of Department employees and
use of commercial email for official government business. The OIG team’s recom-
mendations addressed the embassy’s leadership, communication, and morale issues.
In France, OIG inspected Mission Paris and the U.S. Missions to the United Nations
Educational, Scientific, Cultural Organization (UNESCO) and the Organization for
Economic Cooperation and Development (OECD). The embassy had close work-
ing relationships with French officials, and there was a new emphasis on increasing
U.S. exports to France, expanding outreach to French youth, and showcasing U.S.
green technology. Reporting was notable for its relevance, timeliness, and scope. OIG
recommended that the embassy conduct a cost-benefit analysis to determine whether
American Presence Posts were still needed, given increased access to the public
through social media and centralization of many consular services.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   5
    The Ambassador of the U.S. Mission to UNESCO had enhanced the mission’s
    visibility among UNESCO member states and strengthened U.S. influence despite
    the challenges associated with the October 2011 cutoff of U.S. funding in the wake
    of Palestinian accession. The inspectors noted weaknesses in internal controls on
    travel, spousal employment, and use of U.S. Government vehicles and lack of coor-
    dination and information flow between the mission and the Bureau of International
    Organization Affairs. OIG recommended removing language designation from three
    positions, which was estimated to save $168,000.
    Although the tri-mission management section did a good job of supporting Embassy
    Paris, USUNESCO, and USOECD, lapses in management controls had resulted
    in vulnerabilities in procurement, voucher, and certification processes that required
    immediate attention. OIG inspected Embassies Madrid and Lisbon and made recom-
    mendations to downsize a consulate, close two consular agencies, and eliminate some
    language-designated positions. Implementation of these recommendations could
    result in cost savings of mor than $1 million annually.



    INVESTIGATIONS
    During the reporting period, OIG investigations resulted in more than $8 million
    in monetary fines and recoveries, including a $7.5 million fine that was assessed
    against a Department security contractor as part of a deferred prosecution agreement
    with the United States Attorney’s office.  OIG investigations also resulted in a total
    of 20 suspension and debarment actions being taken against Department contrac-
    tors and grantees.  Additionally, the OIG Hotline processed 1,193 complaints from
    Department employees, contractors, grantees and members of the general public,
    which was an all time record high number for a semiannual reporting period.  OIG
    also provided 21 fraud awareness presentations to approximately 1,000 Department
    and BBG employees during the reporting period.



    BROADCASTING BOARD OF GOVERNORS
    OIG performed three inspections and one compliance followup review of BBG
    operations during this reporting period.
    Radio Free Europe/Radio Liberty (RFE/RL) Prague was facing budget challenges,
    resource pressures, and organizational restructuring that was adversely affecting
    staff morale. RFE/RL’s language services had adopted new ways to reach audiences,
    including using the Internet, social media, and input from audience members acting
    as citizen journalists. Its technology division was creative and a source of cost-saving
    innovations. Senior management was appropriately focused on operational issues



6   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
and morale. OIG made recommendations to improve communication, security, and
emergency preparedness.
OIG’s followup review of BBG operations in Thailand found that they were run well,
despite uncertainties about the future of the transmitting station in Udorn. BBG
headquarters was still conducting a strategic review of its operating and distribution
platforms, the results of which would directly affect operations in Thailand.
OIG found no serious management problems at the Voice of America Nairobi News
Bureau. Security at the facility met standards. The BBG Office of Security was
scheduled to visit shortly after the OIG inspection to complete upgrades. OIG made
recommendations to improve administrative support and to strengthen management
controls.
The director of the International Broadcasting Bureau’s (IBB) Regional Office of
Marketing and Program Placement in Prague, Czech Republic (OMPP-Prague)
provided strong organizational direction to a dedicated staff. Located in the head-
quarters of RFE/RL, OMPP-Prague maintained a good relationship with RFE/RL
and worked closely on affiliate lease agreements and with Embassy Prague, from
which it received reliable administrative support. OMPP-Prague had good internal
controls and administrative procedures. OMPP-Prague’s location near the affiliates
allowed the office and its satellite marketing contractors to observe and recognize
emerging consumer and media trends.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   7
8   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
DEPARTMENT
     OF
   STATE
10   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
OFFICE OF AUDITS


CONTRACTS AND GRANTS

Audit of Contracting Officers Exceeding Delegated Procurement Authority for
Overseas Contracts (AUD-CG-12-33)
This audit, conducted by an independent public accountant, was to determine the
extent to which contracting officers (CO) were exceeding their delegated procure-
ment authority for the award of overseas contracts. This audit was performed as a
result of a control deficiency identified during the audit of the Department’s FY 2010
financial statements. This report was issued after the March 2012 OIG report Audit
of Contracting Officers Exceeding Delegated Procurement Authority (AUD/CG-12-26),
which focused on domestic contract actions.
Overall, COs issued contracts overseas in compliance with the limits of their dele-
gated warrant authorities. From a sample of 105 overseas contract actions, totaling
approximately $125 million, entered into by the Department for FYs 2008–2010, the
public accountant found only three actions for which the Department was unable to
provide sufficient evidence to demonstrate that the signing official had the appropri-
ate warrant authority or that an approved waiver had been received. Internal controls
were not in place to identify these unauthorized commitments and to periodically
compare overseas contract actions with the COs’ warranted authority.
The independent public accountant made recommendations that focused on comply-
ing with Federal and Department regulations and authorities governing the limits of
contractor warrant authority and on improving internal controls related to overseas
contract award actions.

Review of Costs Charged to Iraq Democracy-Building Grants Awarded to the
International Republican Institute During FYs 2004-2010 (AUD-CG-12-35)
An independent public accountant determined the eligibility of costs for eight grants,
totaling $130.7 million, awarded by the Department to the International Republican
Institute (IRI) during FYs 2004–2010 to provide democracy-building programs
throughout Iraq.
The public accountant found that direct costs charged to the grants were reasonable
for the purpose of conducting the programs but that indirect costs were overcharged
by $260,648 because excess security costs were included in the overhead base. Also,



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   11
     for most of the period stated, the allocation of security contract costs between the
     grants was not supported by a method that could be verified. Consequently, four of
     the eight grants exceeded their respective award budgets by $4,589,952. However,
     IRI, since January 2010, had discontinued the practice that led to the improper
     allocation of security costs. Therefore, the public accountant believed IRI had
     adopted a consistent basis for allocating security costs to future programs. The public
     accountant also identified instances of noncompliance with Federal procurement and
     property standards. For example, IRI did not obtain prior approval from the grants
     officer for the purchase and disposition of vehicles acquired at a cost of $689,500
     under one of IRI’s security contracts.
     The public accountant made recommendations to address the weaknesses noted and
     requested that the grants officer for the eight IRI grants question as ineligible the
     $260,648 in excess security costs.

     Audit of Bureau of Oceans and International Environmental and Scientific
     Affairs Administration and Oversight of Funds Dedicated To Address Global
     Climate Change (AUD-CG-12-40)
     OIG found areas that require greater management attention to improve Bureau of
     Oceans and International Environmental and Scientific Affairs (OES) administration
     and oversight of climate change programs. Specifically, OES did not always follow
     guidance on how to execute data quality assessments to ensure the accuracy of data
     used to report and support programmatic results and on how to manage and monitor
     climate change grants and interagency acquisition agreements.
     OIG made recommendations to improve the administration and oversight of climate
     change programs, which included a recommendation that $600,000 in Economic
     Support Funds transferred to the U.S. Agency for International Development
     (USAID) should be properly accounted for.
     In addition, OES did not always administer interagency acquisition agreements in
     accordance with applicable Federal regulations and Department policy. Specifically,
     OIG recommended that the Office of the Procurement Executive develop and issue
     standardized Department policies and procedures for the administration, review, and
     approval of interagency acquisition agreements and interagency agreements. OIG
     expanded its recommendations to include solutions that may potentially impact poli-
     cies and procedures Department-wide and ensure that Department officials are aware
     of the requirements for both types of agreements.




12   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
FINANCIAL MANAGEMENT

Independent Auditor’s Report on the International Boundary and Water
Commission, United States and Mexico, U.S. Section, 2011 and 2010 Financial
Statements (AUD/FM-12-37)
OIG’s independent external auditor issued an unqualified opinion on the International
Boundary and Water Commission, United States and Mexico, U.S. Section (USIBWC),
annual financial statements as of and for the years ended September 30, 2011 and 2010.
The independent external auditor did not identify any material weaknesses related to
internal control or reportable instances of noncompliance.
OIG did not agree with the conclusions reached by the independent external auditor
on USIBWC’s accounting treatment of estimated costs to comply with court orders
to bring a wastewater treatment plant into compliance with environmental require-
ments. USIBWC chose to report this estimate as an environmental liability on the
Consolidated Balance Sheet and as a negative expense, which reflects the amount
spent on the project during the year, on the Consolidated Statement of Net Cost.
OIG concluded that this accounting treatment departed from generally accepted
accounting principles. Because of the dollar magnitude of the transactions in FY
2010, OIG believes that USIBWC’s 2010 financial statements do not present fairly,
in conformity with accounting principles generally accepted in the United States of
America, the financial position and costs of operations. Under these circumstances,
auditing standards prescribe an adverse opinion for USIBWC’s 2010 financial state-
ments. The dollar magnitude of the transactions in 2011 was not significant to
USIBWC’s financial statements.
In addition, the external auditor reported three significant deficiencies related to
financial reporting, real property, and contract accruals. OIG did not agree with the
external auditor’s decision to report the weaknesses related to real property as a signif-
icant deficiency. For consolidated financial statement reporting purposes, USIBWC
financial information is included in the Department’s financial statements. During
the audit of the Department’s 2011 financial statements, the Department’s financial
statement auditor identified a significant, multiyear improvement project constructed
by another entity on behalf of USIBWC, which understated USIBWC’s real property
on its Consolidated Balance Sheet. As a result, USIBWC restated its 2010 finan-
cial statements and updated its 2011 financial data to reflect this project. To be in
compliance with auditing standards, OIG concluded that the internal control defi-
ciencies in USIBWC’s real property processes should have been reported as a material
weakness, not as a significant deficiency.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   13
     Management Letter Related to the Audit of the International Boundary and
     Water Commission, United States and Mexico, U.S. Section, 2011 and 2010
     Financial Statements (AUD/FM-12-38)
     During the audit of the International Boundary and Water Commission, United
     States and Mexico, U.S. Section, 2011 and 2010 financial statements, an independent
     external auditor identified internal control weaknesses or instances of noncompliance
     with selected provisions of applicable laws and regulations relating to property, plant,
     and equipment; unliquidated obligations; payroll; earned revenue; environmental
     liabilities; the Federal Employees’ Compensation Act; deferred maintenance; prompt
     payment; segregation of duties; and information technology security. The auditor
     recommended that USIBWC take appropriate actions to address these weaknesses.

     Audit of Department of State Use of Consular Fees Collected in Support of the
     Border Security Program (AUD-FM-12-39)
     The Department did not have a centralized program management structure for
     the Border Security Program. Although the Bureau of Consular Affairs (CA) was
     considered the lead bureau for the program, it did not exercise authority to oversee all
     aspects of the program. In addition, program-related roles and responsibilities were
     not clearly defined, funding decisions were not based on prioritization factors, and
     overall accomplishments were not being tracked. Also, the Department did not have
     sufficient guidance on the use of the funds and did not have an adequate process in
     place to monitor program expenditures.
     In addition, OIG could not determine whether the Department was using border
     security funds in accordance with mission priorities and could not ensure that some
     border security funds were used in accordance with Department guidance.
     For the expenditures it was able to test, OIG found that the border security funds
     were generally being used for consular-related activities but that some expenditures
     were made for items that did not comply with CA guidelines or other approved
     financial instructions. Specifically, post expenditures totaling approximately
     $166,000 were not made in accordance with formal guidance and had not been
     approved, domestic CA expenditures totaling about $280 million were not spent in
     accordance with CA guidelines or lacked sufficient documentation to determine how
     the funds were used, and domestic Bureau of Diplomatic Security (DS) expenditures
     totaling approximately $3.4 million were not in compliance with DS spending plans.
     Finally, although all of the individuals filling overseas positions funded with border
     security funds were performing consular work, of the 57 consular positions tested
     that were not funded by the program, 55 individuals were performing work similar to
     individuals in positions that were funded by the Border Security Program.




14   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
OIG made recommendations for CA to improve the program management struc-
ture of the Border Security Program. OIG also recommended that DS refund $2.1
million erroneously charged to the Border Security Program.



INFORMATION TECHNOLOGY

Audit of Department of State Access Controls for Major Applications
(AUD/IT-12-44)
OIG audited logical access controls on the major applications and databases that store
sensitive information within the Department. Logical access controls are intended to
provide assurance that only authorized users access system data and programs.
OIG found that the Department had made overall progress toward implementing
effective logical access controls for major applications. However, OIG found weak-
nesses in application and related databases both domestically and at overseas posts.
Weaknesses in logical access controls render sensitive information vulnerable to
compromise, jeopardizing the confidentiality, integrity, and availability of the stored
and processed information.
OIG made recommendations to enhance the security posture of the Department’s
major applications.



MIDDLE EAST REGION OPERATIONS

Evaluation of the Antiterrorism Assistance Program for Countries Under
the Bureaus of Near Eastern Affairs and South and Central Asian Affairs
(AUD/MERO-12-29)
In 1983, Congress authorized the Department’s Antiterrorism Assistance (ATA)
program to enhance the ability of foreign countries’ law enforcement to deter
terrorists from engaging in international terrorist acts. From FYs 2002-2010, the
Department provided more than $873 million to the Bureau of Counterterrorism
(CT) and the Bureau of Diplomatic Security’s Office of Antiterrorism Assistance
(DS/T/ATA) for ATA programs in 22 countries in North Africa, the Middle East,
Central Asia, and South Asia.
In FY 2010, the ATA program trained 2,700 participants from the 22 countries at a
cost of $1,800 per student per day of training. However, program effectiveness could
not be determined because specific, measurable, and outcome-oriented objectives
had not been determined and an evaluating mechanism had not been implemented.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   15
     Also, DS/T/ATA and CT were not consulting the Bureau of Democracy, Human
     Rights, and Labor when selecting partner countries or determining the assistance to be
     provided to those countries. As a result, there was no assurance the ATA program was
     achieving its statutory purposes or that the program was successful. Further, DS/T/ATA
     could not determine when countries could sustain their own ATA programs without
     U.S. support.
     In addition, OIG found 6,700 pieces of equipment, valued at $1.5 million, that ATA
     had purchased for the Iraq program but had stored in a Northern Virginia warehouse
     for 21 months as of December 31, 2011.
     OIG made recommendations for the Department to establish a program monitoring
     and evaluation system to determine program effectiveness; standardize the report-
     ing process for in-country oversight of training contracts; and review the types of
     remaining equipment stored in the warehouse, evaluate the equipment’s utility, and
     determine an appropriate disposition of the equipment.

     Evaluation of Invoices and Payments for the Embassy Baghdad Operations and
     Maintenance Contract (AUD/MERO-12-43)
     OIG conducted a review of the Embassy Baghdad operations and maintenance
     contract awarded to the contractor Pacific Architects and Engineers (PAE) to deter-
     mine whether the Department paid PAE in accordance with authoritative guidance
     and contract terms and conditions.
     OIG determined that the contracting officer’s representative (COR) approved
     86 contractor invoices, totaling about $4.4 million, that included unallowable and
     unsupported costs and costs for goods not delivered. As a result, the Department
     paid the contractor at least $2.7 million for costs not authorized and for goods not
     provided.
     OIG made recommendations for the Department to recover the costs for unallow-
     able and undelivered goods and services, to institute a mechanism to ensure that
     CORs follow Departmental requirements for approving and certifying the payment
     of invoices, and to conduct a comprehensive review of all invoices to determine
     whether additional costs should be recovered. OIG further recommended that the
     Department undertake a review and, if warranted, take appropriate administrative
     actions against the CORs who did not follow appropriate Federal and Departmental
     guidance concerning contractor invoice certification and approval.

     Evaluation of the Local Guard Force Contract for Embassy Islamabad and
     Consulates General Karachi, Lahore, and Peshawar (AUD-MERO-12-46)
     OIG determined that the U.S. Mission Pakistan local guard force contractor did not
     provide Department-approved replacement guards during a labor strike in Islamabad
     in June 2011. The strike posed a security risk because the contractor did not have


16   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
a contingency plan to replace the guards on strike and therefore used unapproved
guards to cover the guard posts. In addition, the Department did not provide over-
sight necessary to ensure that the contractor provided adequate training in some
required skills. OIG also found that the contractor did not enroll all of its guards
in the Employees’ Old-Age Benefits Institution, a Pakistani retirement program, as
required by contract terms and conditions. OIG found no errors during its review of
contractor invoices, thereby concluding that the Department had properly function-
ing internal controls in place to help ensure that invoices were accurate and supported
with appropriate documentation.
OIG made a recommendation to ensure improvement of program management
reviews of local guard force contracts. OIG also made a recommendation to ensure
that all guards were enrolled in the Pakistani retirement program and to properly
credit amounts already withheld from the guards for that enrollment.

Compliance Followup Review of Department of State Actions To Reduce the Risk
of Trafficking in Persons Violations in Four States in the Cooperation Council
for the Arab States of the Gulf (AUD-MERO-12-47)
This review focused on the Department’s compliance with the seven recommenda-
tions contained in OIG’s January 2011 report Performance Evaluation of Department
of State Actions To Assess the Risk of Trafficking in Persons Violations in Four States in
the Cooperation Council for the Arab States of the Gulf (MERO-I-11-06).
 OIG determined the Department had taken sufficient actions to close three of the
recommendations, finding that embassies had obtained and transmitted country-
specific passport retention laws to their respective contractors; improved the living
conditions for gardeners in Riyadh, Saudi Arabia; and developed guidance and train-
ing for monitoring contracts for potential trafficking-in-persons (TIP) violations.
OIG reissued recommendations related to contractor passport retention and payroll
practices and to contractor compliance with labor standards. However, OIG issued
three new recommendations related to housing for janitors in Dhahran, Saudi
Arabia, and to the clarification of guidance for monitoring contracts for potential
TIP violations.



SECURITY AND INTELLIGENCE

Limited-Scope Audit of Department of State Management of the Afghanistan
Civilian Uplift (AUD-SI-12-36)
The Bureau of South and Central Asian Affairs used restricted funds, which
were designated to support operations and security requirements for Afghanistan,



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   17
     Pakistan, and Iraq and certain global activities, to reimburse the payroll costs of
     civilian uplift personnel who had left Afghanistan and were transitioning to their
     next assignments. The Department also did not implement an account structure
     to budget and account for expenditures made from supplemental appropriations of
     $116.5 million received in June 2009 that was designated for security programs in
     Afghanistan. Without a designated country code for Afghanistan, the Department
     could not verify that the supplemental funds were available, expended, or used for
     their intended purpose. After OIG’s fieldwork, the Department did establish a
     new mechanism to track and account for security costs for Afghanistan and other
     front-line states (countries near armed conflicts). In addition, the Department’s
     Afghanistan civilian staffing complement was not always accurate, complete, or
     updated, as required by Departmental guidance, which could have increased the risk
     that civilian personnel in Afghanistan might not be properly accounted for in the
     event of an emergency evacuation. Department officials stated that the Department’s
     tracking database was being perfected so that these personnel could be tracked
     accurately.
     OIG made recommendations for the Department to improve the accounting,
     management, and reporting of Afghanistan civilian uplift costs specific to payroll
     operations and security costs and funds control.

     Outline for Action:  Physical Security Concerns at Embassy Berlin (AUD/SI-12-48)
     and Outline for Action:  Physical Security Concerns at Embassy Quito
     (AUD/SI-12-49)
     As part of an overall audit of the Department’s compliance with physical security
     standards and measures at overseas posts, OIG conducted physical security surveys
     at Embassy Berlin and Embassy Quito to determine the embassies’ compliance with
     current standards.  OIG identified physical security areas that require the embassies’
     immediate attention and made recommendations for the embassies to enhance their
     respective security posture. 




18   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
  Nonfederal Audits of Nonprofit Institutions
  Office of Management and Budget (OMB) Circular A-133, Audits of States, Local
  Governments, and Nonprofit Organizations, establishes audit requirements for
  specified entities receiving Federal awards. Public accounting firms employed by
  nonfederal entities conduct the audits. The firms file these single audit reports
  with the Federal Audit Clearinghouse, and OIG reviews audit reports involv-
  ing Department and BBG funds and provides quality assurance and general
  oversight.
  OIG conducted its reviews using the Council of Inspectors General on Integrity
  and Efficiency Guide for Desk Reviews of OMB Circular A-133 Audit Reports. The
  objectives of the review were to determine whether the audit reports met appli-
  cable reporting standards and reporting requirements of OMB Circular A-133
  and to identify issues that require management’s attention. During this reporting
  period, OIG completed 17 analytical desk reviews of single audits for 12 entities
  as follows:
    •	 American Councils for International Education for FY 2011
    •	 American Institute in Taiwan for FY 2010 and FY 2011
    •	 Counterpart International, Inc., for FY 2010
    •	 Institute of International Education, Inc., and Affiliate for FY 2010
       and FY 2011
    •	 International Medical Corps for FY 2011
    •	 International Republican Institute for FY 2011
    •	 International Rescue Committee, Inc., for FY 2011
    •	 International Research and Exchanges Board, Inc., for FY 2011
    •	 Middle East Broadcasting Networks, Inc., for FY 2010 and FY 2011*
    •	 National Democratic Institute for International Affairs for FY 2011
    •	 National Endowment for Democracy for FY 2010 and FY 2011
    •	 Radio Free Europe/Radio Free Liberty, Inc., and Subsidiary for
       FY 2010 and FY 2011*
  * Reviews conducted for the Broadcasting Board of Governors




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   19
20   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
OFFICE OF INSPECTIONS


DOMESTIC INSPECTIONS

Inspection of the Bureau of Consular Affairs, Directorate of Overseas Citizens
Services, Office of Children’s Issues, Office of Policy Review and Interagency
Liaison, and the Planning, Programs, and Systems Liaison Division
(ISP-I-12-21)
OIG conducted an inspection of the Bureau of Consular Affairs, Directorate of
Overseas Citizens Services (CA/OCS), focusing on the Office of Children’s Issues
(CI); the Office of Policy Review and Interagency Liaison (PRI); and the Planning,
Programs, and Systems Liaison division (P). Overall, CA/OCS was successfully
providing policy guidance, training, and support to posts, parents, and others
engaged in stressful and emotional international adoptions and abductions. The
directorate had revamped its duty and task force system to make it more effective
and better able to react in a crisis. In addition, the Secretary’s special advisor on
children’s issues was effectively promoting U.S. interests in international and domes-
tic fora; however, the directorate faced some internal operating issues. CI had more
than tripled in size in less than 4 years, resulting in overcrowding, outdated standard
operating procedures, inadequate training, and lack of direction for outreach efforts.
Similarly, PRI struggled to keep pace with increasing demand for its expert legal
advice. Weak workload management, ad hoc coordination among PRI attorneys and
their counterparts, and flawed management of the crime victim assistance program
exacerbated the problem. P, a relatively new CA/OCS division, suffered from broad
customer dissatisfaction, indicating a need for better management and communica-
tion and for consolidating the operational responsibility for financial controls for all
OCS within P.
OIG made recommendations to address the office’s management, communication,
and training issues. The inspectors also made recommendations to address security
problems at the current CA/OCS location until the office relocates to the new annex
building in 2013.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   21
                     INNOVATIVE PRACTICE: Duty Teams

                     Issue: The inspection of the Bureau of Consular Affairs, Overseas Citizens
                     Services, Office of American Citizens Services and Crisis Management,
                     in Spring 2011, identified the duty and task force systems in OCS as an
                     area of weakness. Although participation was required, duty and task force
                     assignments were not consistently tracked, and there was a perception that
                     some employees successfully avoided them. The system of multiple duty
                     officers to cover different time slots for a week at a time was confusing and
                     onerous.
                     Response: CA/OCS convened a working group and developed a team
                     approach to duty. There are 12 duty teams consisting of 7 to 8 members and
                     2 duty directors. Members are drawn from a mix of divisions and branches
                     within CA/OCS. The teams serve for 1 week and rotate on Wednesdays.
                     They field calls from 5:00 p.m. to 8:15 a.m. on weekdays and for 24 hours on
                     weekends and Federal holidays. One team member is designated as on call
                     on any one night. All team members have BlackBerry devices with the same
                     number, but only the on-call member turns the BlackBerry on for that evening.
                     This arrangement provides a single contact number for the Operations Center
                     and the National Contact Center and avoids passing on a single duty phone on
                     a daily basis.
                     Result: In the event of an emergency requiring the entire team, the duty
                     director contacts each team member directly. This process enables the duty
                     team to instantly transition to a mini crisis task force and carry on until, or if, a
                     full-scale task force is established.




     Inspection of the Bureau of Information Resource Management, Systems and
     Integration Office (ISP-I-12-30)
     The Systems and Integration Office (SIO) had a management team that, for the most
     part, effectively dispatched its duties. SIO senior leadership had made a concerted
     effort to promulgate a cohesive mission statement to direct the activities of the office.
     The inspectors noted that SIO’s implementation of cloud computing did not fulfill
     the essential characteristics of the National Institute of Standards and Technology
     model; that SIO management had not enforced use of the systems development
     lifecycle process and methodology; and that SIO had not addressed the consequences
     of the Department’s expanded use of SharePoint beyond its intended purpose as a
     collaborative tool, with some using the application to conduct daily business and
     support key political and military events.
     SIO needed to improve communication in all areas of its business; implement
     adequate controls and procedures to monitor its multiyear contracts totaling more
     than $182 million; clearly define its internal inventory process for managing and


22   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
tracking; and delineate the role and organizational placement of the Program
Management Office and function, as well as standardize the use of terminology
referring to office activities. In addition, SIO management needed to begin working
on a formal plan for the transition of the payroll support function to the Bureau of
Resource Management1. OIG made recommendations to address these issues.

Inspection of the Bureau of Diplomatic Security, Office of Antiterrorism
Assistance (ISP-I-12-31)
The Bureau of Diplomatic Security’s Office of Antiterrorism Assistance (DS/T/ATA)
administers the Antiterrorism Assistance Program to train civilian security and law
enforcement personnel in police procedures to counter terrorism. Since its inception
in 1983, the program has trained more than 84,000 students from 154 countries.
Feedback from embassies and Department officials regarding the quality and appro-
priateness of these courses was positive.
OIG noted a strained relationship between DS/T/ATA and the Bureau of
Counterterrorism regarding their respective responsibilities in managing the
Antiterrorism Assistance Program. Although past memoranda of agreement had
attempted to delineate these responsibilities, ambiguities still existed, and some provi-
sions of the current agreement were not being followed.
OIG also noted a lack of continuity in DS/T/ATA leadership positions that adversely
affected management of the office; the perception among Civil Service employees
that Foreign Service special agents received preferential treatment; lack of project
manager training among new division chiefs, branch managers, and program/project
managers; inadequate communication and coordination among the five DS/T/ATA
divisions; and serious deficiencies with the accountability for some U.S. Government
property. OIG made recommendations to address these issues.

Inspection of the Bureau of Counterterrorism (ISP-I-12-32A)
In January 2012, the Department elevated the Office of the Coordinator for
Counterterrorism to its own bureau, the Bureau of Counterterrorism (CT), to
expand the Department’s capabilities in counterterrorism and to allow more effec-
tive coordination with other agencies, including the Departments of Defense, Justice,
and Homeland Security, as well as the intelligence community. CT was doing a
commendable job in shaping and executing the Department’s counterterrorism
policy. OIG found the bureau’s leaders to be highly regarded in the Department and
the interagency community for their expertise, teamwork, and policy innovation.



1	
   In July 2012, the Bureau of Resource Management restructured into the Bureau of the Comptroller and
Global Financial Services and the Bureau of Budget and Planning.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012            23
     Still, CT faced ongoing challenges associated with establishing itself as a bureau and
     was implementing a major reorganization that entailed creating an executive office
     and adding staff, particularly in program management, and to provide needed rein-
     forcement to hard-pressed units.
     To assist in this effort, OIG recommended that CT continue to make executive office
     staffing a high priority; adjust the allocation of some of its newly approved direct-hire
     positions; clarify the roles of offices and individuals under the reorganization plan;
     increase communication with bureau staff; improve management of foreign assistance
     programs; enhance cooperation with DS/T/ATA in managing the global antiterror-
     ism training assistance program; and take direct control of the total funding for its
     Regional Strategic Initiative.

     Inspection of the Office to Monitor and Combat Trafficking in Persons
     (ISP-I-12-37)
     The Ambassador at Large and the staff of the Office to Monitor and Combat
     Trafficking in Persons (J/TIP) led U.S. Government efforts to raise anti-trafficking
     visibility worldwide and to help countries monitor and combat trafficking in persons.
     Although J/TIP’s working relations within the Department had improved over the
     past 2 years, fundamental tensions remained that hindered Department collaboration
     on anti-trafficking goals and contributed to poor resource allocation. In executing its
     interagency coordination mandate, J/TIP had energized and provided needed direc-
     tion to the interagency Senior Policy Operating Group (SPOG) on trafficking in
     persons. It also led interagency efforts to identify broad antitrafficking objectives and
     forged interagency collaboration to improve training, awareness, and coordination.
     The tier ranking system of the Trafficking Victims Protection Act (TVPA) of 2000,
     as amended, was not well understood outside of J/TIP, and implementation of the
     law lacked flexibility, which contributed to differences in interpretation among posts,
     regional bureaus, and J/TIP. This lack of understanding caused confusion or pique
     on the part of countries being evaluated, jeopardizing other bilateral objectives.
     Funding for grants to assist poor countries making insufficient antitrafficking prog-
     ress had been cut significantly at a time when U.S. leadership continued to elevate
     worldwide trafficking awareness. However, J/TIP had revamped its annual competi-
     tive grants review and selection process by linking awards to global anti-trafficking
     assistance priorities and streamlining the process, which resulted in an innovative
     practice worthy of adoption elsewhere. Because of a rapid staff increase, reorganiza-
     tion, and staff turnover, J/TIP faced leadership and management challenges such as
     internal communications, work prioritization, resource planning, and training, as
     well as insufficient staffing to support the annual Trafficking-in-Persons report draft-
     ing seasons. OIG made recommendations to address these management and process
     challenges.




24   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
Review of the Department of State’s Shuttle Bus Fleet Operations (ISP-I-12-50)
OIG conducted a review of how the Fleet Management and Operations Division
(FMO) managed scheduled and unscheduled maintenance for the Department’s
shuttle bus fleet. The OIG review determined that FMO provided a satisfactory level
of routine maintenance services for the Department’s bus fleet but did not always act
on nonroutine mechanical problems in a timely manner.
OIG made recommendations to address FMO’s organizational, management,
and process deficiencies, including FMO’s interaction with the General Services
Administration, and its inadequate record-keeping system. OIG also recommended a
review of the demands on the shuttle bus system to determine the cost effectiveness
of leasing vehicles from the General Services Administration or through a commer-
cial company.

  Support for Department Employees Serving in Afghanistan, Iraq, and
  Pakistan (ISP-I-12-49)
  In the course of analyzing issues concerning families of employees serving in
  Afghanistan, Iraq, and Pakistan (AIP), OIG noted two areas for improvement
  for the program. First, there were no guidelines directed to post management on
  standard post support responsibilities to safe-havened families. Second, guidance
  for AIP bidders and their families was excellent but not easily available to poten-
  tial bidders early enough in the bid process.
  OIG recommended that clear guidelines be disseminated to post management on
  support for AIP families and that information provided to potential AIP bidders
  and their families be sent earlier in the bidding process.

Assessment of the Department of State’s Motor Vehicle Fleet (ISP-I-12-51)
The Department’s motor vehicle fleets consisted of approximately 14,000 vehicles,
with an acquisition cost of more than $867 million. Reported costs per mile driven
for Department motor vehicles had increased over the past decade and were the high-
est among Federal cabinet agencies.
Since 2005, the Department has taken some steps to improve vehicle fleet manage-
ment, including creating an internal fleet management council, instituting vehicle
allocation methodology studies and fleet management plans for the domestic fleets,
and implementing a fleet management information system to collect fleet data.
The Bureau of Administration’s domestic Fleet Management Office division also
has implemented General Services Administration fleet management best practices,
resulting in relatively stable domestic fleet levels.
However, the Department was not in compliance with the Federal Management
Regulation, which requires agencies to collect and report information on mileage,


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   25
     fuel use, and maintenance costs for each vehicle in the fleet. In addition, the
     available motor vehicle fleet utilization data was incomplete and not fully reliable.
     For example, 45 percent of overseas vehicles did not have required utilization
     reports completed for FY 2011. Without this basic data, the Department could not
     document whether it needs such a large overseas fleet. Other deficiencies include
     outdated criteria for allocating and replacing motor vehicles according to life-cycle
     replacement needs; lack of standardized procedures and practices among bureaus
     to fund and procure vehicles for overseas use; and lack of Department enforcement
     of the requirement for overseas missions to conduct annual reviews of their fleet
     composition and size. OIG made recommendations to address these issues.


                     INNOVATIVE PRACTICE: Centralized Procurement
                     of Right-Hand-Drive Vehicles

                     Issue: The Department’s general practice is to require the purchase of
                     American-manufactured vehicles whenever possible, consistent with the Buy
                     American Act, 41 U.S.C. 8301 et seq. There are 74 countries that use right-
                     hand-drive vehicles. In countries where local conditions require purchase of
                     right-hand-drive vehicles or where American-manufactured vehicles cannot be
                     serviced, the Department issues waivers to permit purchases of foreign vehicles.
                     Overseas missions are responsible for subsequent purchases.
                     Response: The Bureau of Administration’s Motor Vehicle branch has set up
                     a pilot program with the General Services Administration to facilitate the
                     centralized procurement of right-hand-drive vehicles at a substantial discount
                     over the commercial rate for such vehicles.
                     Result: This process will significantly streamline the contracting and
                     acquisition timeframes for vehicle purchases and likely lead to substantial
                     discounts for the U.S. Government. This program also will allow the
                     manufacturer’s vehicle warranty to be extended to vehicles sent overseas,
                     potentially reducing repair costs and facilitating repair of vehicles under
                     warranty. Contracting officers also will save time and money by procuring
                     these vehicles from a single Department source.




26   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
  Memorandum Report on Improving Leadership at Posts and Bureaus
  (ISP-I-12-48)
  In 2010, OIG issued a memorandum recommending that the Department devise
  and implement a feedback system to regularly assess post and bureau managers
  and to take appropriate measures to address and correct post and bureau leader-
  ship and management deficiencies. The memorandum noted that while a major-
  ity of inspected posts and bureaus were well run, leadership in a small but signifi-
  cant minority needed to be strengthened because such leadership deficiencies
  resulted in reduced productivity, low morale, and stress-related curtailments.
  OIG’s review of FY 2012 inspections found that even though the majority of
  ambassadors, DCMs, and principal officers were doing a good to excellent
  job, the situation described in that 2010 memorandum persisted. OIG made
  recommendations to the Department to institute a system to assess and follow up
  on the performance of leadership and to develop a Foreign Affairs Handbook on
  leadership and management principles.

Inspection of the American Institute in Taiwan/Washington (ISP-I-12-47)
The American Institute in Taiwan (AIT) is a nonprofit organization founded in
accordance with the 1979 Taiwan Relations Act and overseen by the Department.
AIT’s status as both a nonprofit organization and a Department instrumentality
produced tension and inconsistency in the operational relationship among the
Department, AIT’s offices in the United States (AIT/Washington) and Taiwan
(AIT/Taiwan), and other U.S. Government agencies. Although AIT/Washington’s
contract stipulates that it follow Department direction, and the 1979 Taiwan
Relations Act gives the Department authority to preempt any conflicting state or
District of Columbia law or regulation, AIT/Washington has periodically invoked
its corporate status under District of Columbia law as justification for not conform-
ing to Department regulations.
The Bureau of East Asian and Pacific Affairs and other Department offices tasked with
oversight of AIT had failed to meet their contractual responsibilities, particularly with
respect to policy and financial management. Bureau of East Asian and Pacific Affairs
managers have not fully appreciated their authority over AIT/Washington and had
instead treated it as an independent entity.
The contract with AIT, which entered into force in April 2012, did not reflect
Department needs and priorities and lacked the specificity and detail to enable
appropriate Department oversight. Furthermore, the Department had not adapted
its relationship with AIT to reflect the 2002 amendment to the Foreign Service Act,
which allowed the assignment of active-duty U.S. Government employees to AIT.
Consequently, AIT/Washington contractors continued to perform inherently U.S.
Governmental functions.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   27
     The AIT board of trustees had not met its statutory responsibilities. Detached
     from the policy environment and the management of AIT, the board needed to be
     reformed and reinvigorated. OIG made recommendations to address this and the
     above issues.

     Inspection of the Bureau of Administration, Global Information Services,
     Office of Information Programs and Services (ISP-I-12-54)
     The Bureau of Administration, Global Information Services, Office of Information
     Programs and Services (IPS) is responsible primarily for managing the Freedom of
     Information Act and declassification programs, administering the Privacy Act, and
     conducting records management. IPS was carrying out its declassification duties well
     due, in part, to hiring experienced retirees to handle much of the work. However,
     OIG found leadership and management practices that contributed to low morale,
     poor communication, and weak management controls indicative of office-wide lead-
     ership and management deficiencies.
     Lack of cooperation from the Department and weak internal procedures hampered
     IPS performance of its duties. In addition, the absence of a sound process to develop
     IPS information systems led to delayed and flawed deployment of the key software
     for managing cases, which resulted in significant backlogs.
     IPS records management practices did not meet statutory and regulatory require-
     ments, and unclear lines of authority in the Privacy division hindered its ability to
     fulfill its mandated responsibilities. Furthermore, the Bureau of Administration’s
     plans to consolidate information technology and resource management under IPS for
     all of Global Information Services needed careful review and better planning. OIG
     made recommendations to address these and the above issues.


       Closing out Grants
       OIG continues to find problems with grant close out procedures. At Embassy
       Paris and the U.S. Mission to UNESCO, grants officers did not maintain
       adequate files, monitor grants, or close out grants. Embassy Caracas did not
       request that recipients provide final reports needed to close out grants. In the
       last reporting period, OIG found the Bureau for Educational and Cultural
       Affairs (ECA) had not closed out more than 100 grants that could result in $4
       million in recoveries. In response to OIG recommendations, the Office of the
       Procurement Executive pointed ECA to an updated policy allowing the close out
       of grants before indirect cost rate disputes are resolved. ECA expected to close
       out all 500 of its outstanding grants by October 30, 2012. The Office of the
       Procurement Executive is also revising policies on steps a grants officer must take
       when the recipient will not provide final reports under the award.




28   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
OVERSEAS MISSIONS	

Bureau of African Affairs

Inspection of Embassy Nairobi, Kenya (ISP-I-12-38A)
The Ambassador at Embassy Nairobi had lost the respect and confidence of the staff
to lead the mission. Of more than 80 chiefs of mission inspected in recent cycles, he
ranked last for interpersonal relations and next to last on both managerial skill and
attention to morale. The Ambassador had damaged the cohesion of Embassy Nairobi’s
country team, set a tone that discouraged collaboration, and failed to engage key
Kenyan officials. He established tasks that consumed considerable staff time but were
outside priorities in the embassy’s annual Mission Resource Request. His initiative to
redirect programming for nearly $550 million in U.S. health assistance was disrup-
tive and created confusion about its relationship to existing programs and, moreover,
his unfunded program had unrealistic goals. The Ambassador also was reluctant to
accept clear-cut U.S. Government decisions concerning the safe-havening in Nairobi of
families of Department employees and use of commercial email for official government
business. Despite these issues, the embassy was able to function effectively, operating
below the Ambassador’s radar under the leadership of a competent DCM.
OIG made recommendations to address the embassy’s leadership, communication,
and morale issues. OIG also recommended that the embassy focus reporting on the
forthcoming March 2013 election, strengthen public diplomacy efforts, and extend
assignments to Nairobi to 3 years from 2, which would achieve cost savings of more
than $1.3 million annually.


                INNOVATIVE PRACTICE: Rotating a Collection of Books
                and Videos Among Universities

                Issue: Local students needed access to good materials on business manage-
                ment, entrepreneurship, public speaking, women’s issues, and youth empower-
                ment, but the American Reference Center’s suburban Nairobi location was
                inconvenient for use by large numbers of students.
                Response: The American Reference Center created a rotating collection of 200
                books and videos tied to specific courses or curricula that it lends to universi-
                ties for a semester or two for use by students and professors in their classes.
                Result: The books and materials receive short-term, intensive use in a succes-
                sion of locations. The initial launch of the collection at Kenya Polytechnic
                University garnered positive publicity, strengthened the center’s partnership
                with the university, and provided a programming platform. The program has
                proven so popular with the Polytechnic University that three other universities
                signed up to receive the collection in turn.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012       29
     Inspection of the Somalia Unit, Embassy Nairobi, Kenya (ISP-I-12-39)
     In its first year as an independent entity, the Somalia Unit had done an excellent job
     providing information on developments in Somalia and suggesting policy initiatives
     to Washington. The unit’s reporting had been ample and well-sourced, but needed to
     provide Washington with more analysis of potential security and political risks. The
     unit also needed to facilitate a more collaborative partnership with Embassy Nairobi
     on issues involving both Kenya and Somalia. The Somalia Unit was diligent in over-
     seeing a large assistance program without a presence in the country, but there were
     vulnerabilities involving the cash assistance program that pays Transitional Federal
     Government forces. The Department’s lengthy travel approval process for Somalia
     had prevented U.S. participation in key multilateral decisions.
     OIG made recommendations to the Somalia Unit that included facilitating a more
     collaborative partnership with Embassy Nairobi, addressing the vulnerabilities in
     paying the Transitional Federal Government forces, and assessing procedures for
     travel to Somalia.

     Inspection of Embassy Lusaka, Zambia (ISP-I-12-41A)
     The Ambassador effectively managed a productive interagency process at Embassy
     Lusaka, including coordination of a five-agency, $400 million-plus annual health
     initiative. The mission’s top strategic priority was supporting democracy and good
     governance in Zambia, but this priority had not been reflected in U.S. assis-
     tance levels. A Millennium Challenge compact, expected to bring additional staff
     and $355 million for the next 5 years, would challenge mission management to
     maintain an already high work tempo while paying due attention to staff morale.
     Undisbursed President’s Emergency Fund for AIDS Relief (PEPFAR) funding was
     estimated at nearly $300 million, but Washington was taking remedial steps. The
     mission needed to improve inventory controls, develop a plan to accommodate
     planned growth, and make more efficient use of its government-owned properties.
     OIG made recommendations to address communication and management controls,
     among other operational issues.




30   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
                INNOVATIVE PRACTICE: Missionwide Operational
                Coordination

                Issue: In a busy mission with five sections and five agencies, it is a challenge
                to maximize efficiencies in travel, outreach, and representation and to avoid
                scheduling conflicts, while ensuring that mission elements do not compete
                against one another for media attention.
                Response: Every 2 weeks the DCM chairs an interagency meeting that coor-
                dinates travel, outreach, and representational activities by all mission elements.
                These meetings review a calendar (operations plan) of activities going forward
                at least 2 months.
                Result: The coordination and information sharing permit section and agency
                heads to deconflict events and provide mutual support, as needed. The
                biweekly discussions around the operations plan permit all mission elements to
                realize valuable synergies in their activities, including the effective coordination
                by the public affairs section of media coverage.




Bureau of East Asian and Pacific Affairs

Inspection of Embassy Bandar Seri Begawan, Brunei (ISP-I-12-35A)
Embassy Bandar Seri Begawan’s small and relatively inexperienced staff was advanc-
ing the bilateral relationship in trade, military-to-military relationships, and educa-
tional exchanges. American employees were performing multiple jobs and, with
Brunei set to chair the Association of Southeast Asian Nations in 2013, the staff
faced the additional stress of supporting several high-level visitors. The Bureau
of Overseas Buildings Operations had completed construction of a new small
embassy in Bandar Seri Begawan in 2010 and considered it a model for future small
embassies.
In the classified annex to the report, OIG identified issues that should be considered
in designing and building future standard secure mini-compounds, and made recom-
mendations to address the embassy’s staffing.

Inspection of Embassy Singapore, Singapore (ISP-I-12-36A)
Embassy Singapore’s emphasis on teamwork and inclusiveness had inspired a country
team notable for excellent collaboration. Promoting U.S. economic growth through
commercial diplomacy was the Ambassador’s highest priority. With U.S. exports to
Singapore showing a 41 percent increase since 2009, the embassy was on target to
meet the President’s National Export Initiative target of doubling U.S. exports by


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012          31
     2015. In addition, the embassy-proposed Strategic Partnership Dialogue was expected
     to institutionalize regular high-level consultations between the United States and
     Singapore and broaden cooperation.
     Despite its impressive record of supporting a growing mission with 19 agencies and
     promoting commercial diplomacy, Embassy Singapore was experiencing some inter-
     nal problems, including faltering consular computer equipment and staffing issues.
     OIG made recommendations to correct these issues and identified innovative prac-
     tices implemented by the embassy that save money and promote efficiency.


                     INNOVATIVE PRACTICE: Inventory Optimization and
                     Forecasting

                     Issue: General services offices struggle with how much inventory they need to
                     meet future, uncertain demand. Often they purchase and store more inven-
                     tory than is needed because there has not been an easy way to forecast actual
                     requirements relative to inventory on hand.
                     Response: Using the Integrated Logistics Management System’s asset manage-
                     ment function, Embassy Singapore created an inventory model in an Excel
                     spreadsheet that uses statistical methods, simulation, and historical data analysis
                     to determine optimal inventory levels. The spreadsheet functions enable the
                     property manager to develop an inventory target that responds to a specific confi-
                     dence or risk level. The model also identifies what inventory to dispose of and
                     how much to purchase. To run this model, the embassy uses the departure list,
                     the number of incoming officers, and the locations where the spares or inventory
                     are located. The model does the rest, generating useful reports and analyses.
                     Result: This method helped the embassy avoid unnecessary purchases. Embassy
                     Singapore reduced spares by more than 25 percent, saving nearly $50,000 on
                     annual furniture purchases, while absorbing six new families into the furniture
                     pool. The Bureau of Administration’s Office of Logistics Management recog-
                     nized the value of this methodology and is exploring how to include it in the
                     Integrated Logistics Management System’s asset management module.




32   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
                INNOVATIVE PRACTICE: Automated Utilities Usage
                Emailer

                Issue: Embassy Singapore employees were unaware of the cost for residential
                utilities and had no way to measure progress in conserving energy and reducing
                costs.
                Response: To provide information about energy usage, the embassy devised
                a spreadsheet-based tool that automatically generates a customized email that
                shows residential occupants their utility costs and usage and compares the data
                for similarly-sized households. When the residence is using more utilities than
                average, a tip on how to reduce usage is included, such as air drying dishes in
                lieu of using dishwashers for drying. When the residence is using less than the
                average, the email contains a congratulatory statement and encouragement
                to continue the good practices. The email is sent bimonthly to coincide with
                actual meter readings.
                Result: The cost for utilities was approximately $1 million annually until the
                program began in 2011. The awareness campaign helped reduce utility costs by
                15 percent in 2011.




Compliance Followup Review of Consulate General Hong Kong, China
(ISP-C-12-29A)
OIG found that Consulate General Hong Kong had complied with all formal and
informal recommendations from the 2010 inspection. OIG reissued one recom-
mendation from the 2010 report regarding whether the information management
specialist position was still needed and recommended that Consulate General
Hong Kong eliminate two locally employed staff positions in the consular section.
OIG also recommended that the Bureau of East Asian and Pacific Affairs change
the Mandarin language-designated positions in the consular section to language-
preferred positions.
The public affairs section conducted outreach to the sophisticated and receptive
population in Hong Kong and made cost-effective use of social media and tradi-
tional media to reach a potentially huge audience in China. OIG found potential
and justification for an expanded public diplomacy effort and recommended that the
consulate general review its public diplomacy activities with a view to reaching the
mainland.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012     33
     Compliance Followup Review of Embassy Bangkok and Consulate General
     Chiang Mai, Thailand (ISP-C-12-33A)
     Faced with political violence and social unrest that shut down the embassy and para-
     lyzed the capital, OIG inspectors in 2010 were unable to thoroughly examine general
     services, financial management, and human resources. In addition to evaluating
     compliance with specific recommendations of the 2010 inspection, this report fills
     in those gaps. Since the 2010 inspection, a new Ambassador with senior-level leader-
     ship and management experience, and a new DCM with front office experience and
     language skills, assumed charge at Embassy Bangkok. The consular section also had
     excellent new leadership.
     Although the consular section was working efficiently, OIG made recommenda-
     tions to enhance customer service and conform to regulations. OIG determined that
     the embassy had implemented or otherwise closed 89 of the 98 formal and informal
     recommendations from the 2010 inspection. The team revised and reissued five
     formal recommendations and reissued four informal recommendations as formal
     recommendations.


     Bureau of European and Eurasian Affairs

     Inspection of Embassy Paris, France, and Constituent Posts (ISP-I-12-25A)
     The scope of this inspection included Embassy Paris; consulates general in Marseille
     and Strasbourg; and American presence posts (APP) in Bordeaux, Lyon, Rennes, and
     Toulouse. Under the leadership of the Ambassador and DCM, employee morale was
     good, the embassy had close working relationships with French officials, and there was
     a new emphasis on support for U.S. exports of goods and services into France, expanded
     embassy outreach, a focus on French youth, and efforts to showcase U.S. green technol-
     ogy. Embassy reporting was notable for its relevance, timeliness, and scope.
     Although the tri-mission management section did a good job of supporting Embassy
     Paris and the U.S. Missions to UNESCO and OECD and handling a large visitor
     load, lapses in management controls had resulted in vulnerabilities in the procure-
     ment, voucher, and certification processes that required immediate attention.
     OIG noted that the Department needed to examine the role of Consulate General
     Strasbourg in covering the Council of Europe and European Parliament and to
     coordinate the consulate general’s posture with all bureaus and missions that have
     equities in those organizations. Also of concern was the role of the APPs, which were
     established to conduct commercial and public outreach and to provide services to
     American citizens. OIG recommended that the embassy conduct a cost-benefit analy-
     sis to determine whether the APPs were still needed, given increased access to the
     public through social media and the centralization of many consular services.



34   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
                INNOVATIVE PRACTICE: Staffing Information Flow
                in a Large Embassy

                Issue: The Embassy Paris political section needed a way to enhance mission
                productivity, share information across sections, eliminate duplicative work,
                coordinate taskings, and develop entry-level officer skills.
                Response: The section developed two procedures for coordinating incoming
                and outgoing information that are singular in their scope and organization.
                The section rotates daily responsibility among its four entry-level officers and a
                cleared locally employed U.S. citizen staff member to edit the embassy’s daily
                Paris Points report, to which other embassy sections and constituent posts
                contribute. In addition, every day one member of the political section, includ-
                ing entry-level officers, takes responsibility for compiling a Morning Message
                that screens incoming cables and provides all economic and political officers,
                the DCM, and the Ambassador with relevant information. This informa-
                tion includes Washington taskings, incoming cables of interest, the embassy’s
                outgoing messages from the previous day, a hyperlink for contributions to that
                day’s Paris Points report, and general housekeeping information.
                Result: Entry-level officers have an opportunity to develop professional skills,
                information flow within the embassy is integrated, and collaboration is fostered
                across sections. The political and economic section chiefs are able to monitor
                and oversee assignments, and the system reduces redundant work on the part
                of officers in the two sections. The executive office can confirm easily that
                taskings are being coordinated and that information is shared appropriately.
                This process is suited to a large embassy, where internal communications and
                coordination can sometimes be a challenge. It also contributes to entry-level
                officer professional development.




Inspection of Embassy Prague, Czech Republic (ISP-I-12-42A)
The Ambassador had laid out an ambitious agenda centered on defense cooperation,
commercial advocacy, and shared democratic values. He had taken promising steps
to tap the talents of the embassy’s staff more effectively. The mission operated in a
historic 400-year-old chancery that is a symbolic landmark but also the source of
security, functionality, and accessibility obstacles that hindered operations. Absent
the realistic prospect of a new embassy compound, a long-term approach to address-
ing these problems was essential.
Embassy staffing was top-heavy in some sections. The grade structure of the political
section was a relic of post-1989 Czech politics, when internal political reporting from
the new Eastern Europe was in high demand. OIG recommended that the Bureau of
European and Eurasian Affairs reclassify a mid-level political officer position to an



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012        35
     entry-level position and the information officer position in the public affairs section
     to a mid-level position.
     The need for Czech language to conduct diplomatic operations diminished with
     the increase in English-language instruction in the Czech Republic after the fall
     of communism. OIG recommended eliminating the language designations from 3
     of the 19 language-designated positions at Embassy Prague, which would result in
     substantial cost savings.

     Inspection of Embassy Bucharest, Romania (ISP-I-12-45A)
     Embassy Bucharest had made notable political, political-military, public outreach,
     and economic-commercial successes. With the closure of the USAID office in 2008
     and the expected departure of the Peace Corps in 2013, the embassy gradually recali-
     brated the diplomatic relationship to emphasize defense, commercial, and anticorrup-
     tion issues.
     The move to a new embassy compound in 2011 allowed the embassy to consolidate
     seven buildings into a single facility, enhance internal communication, and reduce
     security vulnerabilities. Embassy management noted a number of significant issues,
     however, with the facility’s design and construction quality. OIG recommended that
     the embassy prepare a lessons learned cable for the Bureau of Overseas Buildings
     Operations, providing details and costs for all remedial projects completed by the
     original contractor, the facilities maintenance staff, or other contractors. The cable
     also should address the scope and cost of pending work orders to remedy construc-
     tion problems and observations about the design of the facility.
     There were costly language-designated positions at Embassy Bucharest. Apart from
     the consular officers who used Romanian in their daily work and for public outreach
     and the public affairs officer who occasionally used it for public speaking, other offi-
     cers reported only a marginal need for Romanian. OIG recommended that Embassy
     Bucharest review its language-designated positions and amend its submission to
     the Bureau of Human Resources to reduce the number of positions designated for
     language training.

     Inspection of Embassy Ljubljana, Slovenia (ISP-I-12-46A)
     Embassy Ljubljana functioned well. U.S. interests in Slovenia were modest, and the
     embassy appropriately directed its primary focus on people-to-people outreach and
     advancement of U.S. regional and global objectives. The embassy was adequately
     staffed and had taken advantage of regionalization and outsourcing initiatives to reduce
     operating costs and keep staffing levels low. Consular, security, and management opera-
     tions were small but functioned well. The mission ran an innovative public diplomacy
     program. Particularly noteworthy were its successful social media programs and schools
     outreach program, in which all American employees participated.


36   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
                INNOVATIVE PRACTICE: SLOcast - Reaching Audiences
                via Podcasts with a Local Flavor

                Issue: Reaching new and younger audiences and presenting them with alterna-
                tive views of the United States and its people is an important public diplomacy
                goal. Personal connections are not always easy or feasible; audio connections,
                with a personal flavor, are.
                Response: Using the talents of its American and local staff, Embassy Ljubljana
                developed SLOcast, a monthly podcast available in both Slovene and English.
                Each 35- to 40-minute episode—some serious, some light—centers around a
                question that the public affairs section explores from a variety of angles. Each
                episode has music, narration, excerpts, and personal interviews edited to weave
                a cohesive narrative. Guests include, among others, embassy officers, alumni
                of U.S.-sponsored exchange programs, Slovenians who have achieved success
                in the United States, and visiting Americans with interesting stories to share.
                The first SLOcast focused on an unusual question: Does Slovenia really have
                the friendliest bears in the world? It drew people in, if only out of curiosity.
                Listeners heard from a zoo official, two Slovenian students who worked in U.S.
                national parks on the Summer Work Travel program, a hunter turned wildlife
                aficionado, the public affairs officer, and others. The initial SLOcast struck
                a chord, and by the 50th episode—by now exploring more serious issues—
                attracted more than 400 unique visitors a month. PAS uses non-copyrighted
                music and staff from all over the mission, including the local guard force,
                for voiceovers. PAS set up a unique Web site for the podcast (slocast.si) that
                is linked to the embassy Web site and its Facebook and Twitter accounts.
                Listeners can also download new episodes automatically from iTunes. 
                Result: Researching, interviewing, and making each podcast helped the
                mission achieve its top strategic goal: increasing people-to-people engagement.
                As the number of listeners grows with each podcast, so does the chance to
                positively influence the next generation of Slovenian leaders.




Inspection of Embassy Madrid, Spain, and Constituent Posts (ISP-I-12-52A)
Mission Madrid was led by a strong executive team. Interagency teamwork was
robust on economic statecraft, law enforcement, and national security activities, and
public diplomacy was thoroughly integrated into mission activities. The mission
produced high quality and timely reporting on Spain’s economic crisis, political-
military cooperation, and government turnover, but deeper analysis of political issues
were hampered by staffing gaps. Consular accountability needed to be strengthened
throughout the mission. The A Coruna consular agency workload could easily be
absorbed by the embassy, and the Palma de Mallorca consular agency should report
directly to Madrid, rather than Barcelona.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012      37
     OIG made recommendations to close the A Coruna consular agency, saving the
     Department $100,000 a year, and to address consular management control and
     personnel issues, among others.

     Inspection of Embassy Lisbon, Portugal, and Constituent Posts (ISP-I-12-53A)
     An engaged executive team led Embassy Lisbon, but post morale was adversely
     affected by the perception that the Ambassador did not fully comply with
     Department regulations. The embassy produced high-quality reporting on Portugal’s
     economic situation and bilateral military and NATO cooperation, but embassy
     reporting officers needed to expand their outreach. Interagency coordination
     was strong, public diplomacy was fully integrated, and the mission energetically
     conducted commercial promotion. An expansion of the treaty-based U.S.-Portugal
     standing bilateral commission put unwelcome pressure on Washington offices to
     provide senior-level participants and complicated setting mission priorities. Consulate
     Ponta Delgada was overstaffed, and the consular agency in Funchal did not have
     sufficient workload to justify its existence.
     OIG made recommendations to reduce staffing at Consulate Ponta Delgada and
     close the consular agency in Funchal. OIG also recommended elimination of
     language requirements. Implementation of these recommendations could result in
     monetary benefits of more than $1 million annually.


     Bureau of South and Central Asian Affairs

     Compliance Followup Review of Embassy Islamabad and Constituent Posts,
     Pakistan (ISP-C-12-28A)
     Embassy leadership deserved credit for its role managing the fallout from a series of
     major events in 2011, including a shooting incident in Lahore in January, the assault
     against Osama bin Laden’s compound in Abbottabad in May, and the unintended
     attack by the North Atlantic Treaty Organization/International Security Assistance
     Force on a Pakistani border post that killed 24 Pakistani soldiers in November.
     Embassy reporting clearly assessed realities in Pakistan and provided sober advice to
     Washington on how to deal with those realities. However, embassy leadership needed
     to accelerate its assessment of the implications of the changing relationship between
     the United States and Pakistan so that decisions could be made on program and
     operating budgets, and staffing and construction plans. One of the embassy’s great-
     est challenges was managing Washington’s intense, and at times intrusive, involve-
     ment and its voracious appetite for information on the situation in Pakistan. While
     it ensured that mission concerns received both timely and top-level attention, it also
     consumed extraordinary amounts of the mission’s time and energy and added signifi-
     cantly to the stresses at this already stressed post.


38   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
Official Pakistani obstructionism and harassment, an endemic problem in Pakistan,
had increased to the point of impairing mission operations and program implementa-
tion and impacting security. The mission struggled to program more than $2 billion
in annual funding for development and security assistance programs and to manage
proposed staffing increases and housing needs. The public affairs program had
initiated a creative effort to counter violent extremism, which may serve as a model
elsewhere.
Embassy Islamabad had complied with almost all recommendations from the 2010
OIG inspection. OIG made recommendations on Washington’s involvement and
communication with the mission, including recommending that harassment be made
an integral part of high-level policy discussions with the Pakistani Government. OIG
also made recommendations to address the mission’s public outreach efforts and its
staffing and space issues, among others.


Bureau of Western Hemisphere Affairs

Inspection of Embassy Port-au-Prince, Haiti (ISP-I-12-24A)
The devastating 2010 earthquake left an indelible imprint on embassy employees
that future American staff needs to take into account when working with locally
employed staff. The Ambassador was providing strong policy direction and leader-
ship to a multiagency team, successfully using a “whole-of-government” approach to
provide earthquake emergency and recovery assistance to Haiti. Embassy operations
were beginning to emerge from a permanent crisis response mode, but there was still
much to be done to restore normal operations and procedures. The management
section had supported a surge in staff growth and coped with staffing gaps in criti-
cal positions with mixed results. Internal control weaknesses and lack of standard
operating procedures for management functions exposed the embassy to risk of
financial loss and jeopardized property accountability. Although the consular section
was functioning effectively, fraud and high-profile interest in Haitian cases impacted
efficiency and complicated workload and staffing projections. Overcoming delays to
complete the U.S. Government-owned residential construction projects was critical to
providing employees with secure and seismically safe housing.
OIG recommended that the embassy develop a plan to normalize operations and
procedures, reconcile staffing actions against the staffing pattern, and implement
controls and procedures to improve embassy functions.

Inspection of Embassy San José, Costa Rica (ISP-I-12-23A)
The embassy’s multiagency team collaborated to advocate U.S. policy goals in Costa
Rica; however, the embassy needed to increase its reporting and analysis on politi-
cal law-enforcement related issues, and on regional environmental, science, and


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   39
     technology. The Ambassador and the public diplomacy section led outreach efforts,
     but the embassy staff was burdened with extensive preparation for these activities,
     including responding to frequent schedule changes. Rightsizing of the information
     management and financial management offices could yield monetary benefits of
     more than $500,000 without affecting performance.
     OIG recommended that the embassy reduce the number of ambassadorial speeches
     and remarks and make better use of its resources in preparing for its outreach efforts,
     and also made recommendations to correct embassy staffing issues.



     INTERNATIONAL ORGANIZATIONS
     Inspection of the U.S. Mission to the United Nations Educational, Scientific and
     Cultural Organization, Paris, France (ISP-I-12-26)
     The Ambassador of the U.S. Mission to the United Nations Educational, Scientific
     and Cultural Organization (UNESCO) had enhanced the mission’s visibility among
     UNESCO member states and U.S. influence within the organization, despite the
     challenges associated with the October 2011 cutoff of U.S. funding in the wake of
     Palestinian accession. Over the past 2 years, the mission had increased its engagement
     in UNESCO, with a commensurate increase in influence on policy and programs.
     OIG noted weaknesses in internal controls on travel, spousal employment, and use
     of U.S. Government vehicles; lack of coordination and flow of information between
     the mission and the Bureau of International Organization Affairs; and insufficient
     attention to information sharing and record keeping. OIG made recommendations to
     address these issues.

     Inspection of the U.S. Mission to the Organization for Economic Cooperation
     and Development, Paris, France (ISP-I-12-27)
     The U.S. Mission to the Organization for Economic Cooperation and Development
     (OECD) had advanced U.S. strategic goals by securing OECD attention to a new
     vision statement for the organization’s future, a more coherent approach to devel-
     opment, Internet policymaking principles, Israel’s entry to the OECD, enhanced
     engagement with Middle East and North Africa nations on governance, a gender
     initiative, and Russia’s accession to the antibribery convention. The Ambassador’s
     engagement on substantive and procedural issues furthered U.S. policy goals and
     enhanced the U.S. profile at the OECD and among member delegations.
     The inspectors noted interagency delays and lack of coordination in clearing OECD
     documents, which was impeding the advancement of U.S. priorities, and inadequate
     review of relevant classified reporting. OIG made recommendations to address these


40   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
issues, and also recommended removing language designation from three positions,
realizing an estimated $168,000 in funds put to better use without reducing mission
effectiveness.



PROGRAM REVIEWS AND SPECIAL REPORTS

Review of Department of State Activities Concerning the Processing of Refugee
Applications and the Provision of Refugee Benefits to Refugees Later Accused of
Terrorism-Related Activities (ISP-I-12-22)
OIG conducted a special review in response to a congressional request concerning
whether two refugees, who were charged with terrorism-related offenses, were incor-
rectly admitted into the United States and provided with government benefits. The
review looked at procedures for refugee security screening and admissions and the
provision of Department-funded benefits. OIG did not uncover any evidence that
Department officials had access to derogatory information that should have raised
red flags about terrorist activities or connections in the cases under review. OIG did
discover discrepancies in the data reviewed that indicated instances of human error
but would not have changed the outcome of the admissions process in these cases.
The refugees received typical travel loans, through nonprofit resettlement agencies, to
help with their transition to the United States. All refugees are required to repay their
travel loans for transportation to the United States; however, there is no established
or realistic means to recoup any of the other Department-supplied funds used to
directly or indirectly provide support to refugees, even if those refugees are ultimately
charged with terrorism-related offenses.
Officials from both the Department of Homeland Security and the Department of
State stated that, since 2009, the Department of Homeland Security has significantly
enhanced security screening procedures, further tightening the entry process for all
refugees.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   41
42   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
OFFICE OF INVESTIGATIONS


CONTRACT FRAUD
OIG conducted a joint investigation into allegations that a major Department
security contractor committed various violations of the Arms Export Control Act.
During the investigation, additional allegations were developed, to include viola-
tions of the International Emergency Economic Powers Act and various federal
firearms statutes and contract fraud. On June 21, 2012, prosecutors filed a criminal
information charging the security contractor with 17 counts relating to the viola-
tions. On August 7, 2012, the U.S. Attorney’s Office agreed to enter into a Deferred
Prosecution Agreement with the company.  In exchange for the agreement to defer
prosecution, the company agreed to:  a) acknowledge responsibility for the conduct
alleged; b) cooperate with the U.S. Attorney’s Office and other law enforcement
agencies regarding the investigation underlying the criminal information; c) employ
an Export Compliance Monitor; d) conduct annual audits to monitor compliance
with federal firearms laws and regulations; e) pay a $7.5 million fine (subject to a
$2.5 million credit for compliance-related costs); and, f) complete payment of the
$42-million civil settlement with the Directorate of Trade Controls.  The agreement
is to remain in effect for a period of 36 months from the date it was accepted by the
court. (C2007-018)
OIG conducted a joint investigation with the Special Inspector General for Iraq
Reconstruction (SIGIR) of a United States Institute of Peace (USIP) official for
conspiring to enrich himself by having USIP award a security contract at a fraudu-
lently inflated price in exchange for a purported monthly consulting fee of $20,000
paid by the contractor. On August 7, 2012, the Department of Justice announced
that the subject had entered into a plea agreement after admitting to his fraudulent
activities. Sentencing of the subject was pending at the end of the reporting period.
(C2009-101)
OIG conducted an investigation which determined that a security contractor that
provided local guard service to an overseas embassy violated the terms of the contract
by failing to pay more than $95,000 in social security taxes to the host govern-
ment. The contractor ultimately was ordered by the court of the host government
to make reimbursements of the amounts not paid. On August 15, 2012, the Office
of the Procurement Executive proposed debarment of the contractor for 1 year.
(C2010-090)




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   43
     EMBEZZLEMENT
     OIG conducted a joint investigation with the Washington Metropolitan Police
     Department based upon information received from ECA pertaining to a participat-
     ing company in the International Visitor’s Leadership Program. An external audit of
     the company disclosed that a former senior financial officer embezzled grant funds
     in excess of $36,000 as well as more than $80,000 in other company funds. When
     interviewed, the subject admitted to embezzling a total of over $140,000. On April
     20, 2012, the subject pleaded guilty to first degree theft in District of Columbia
     Superior Court. On August 10, 2012, the subject was sentenced to 18 months’ incar-
     ceration, three years of supervised release, restitution in the amount of $145,701 and
     a $100 special assessment. (C2011-102)
     OIG conducted an investigation of a Department employee who approved two ques-
     tionable voucher payments to a fictitious company. When interviewed by OIG, the
     subject confessed to embezzling nearly $59,000. The subject was immediately placed
     on suspension and on April 16, 2012, paid a reimbursement to the Department
     totaling $58,681.92. On August 6, 2012, the subject pleaded guilty in U.S. District
     Court to a Criminal Information charging him with theft of Government prop-
     erty. Sentencing of the subject was pending at the end of the reporting period.
     (C2012-048)
     OIG conducted an investigation based on information that a foreign national grant
     recipient embezzled $75,000 in U.S. grant funds. When interviewed by OIG, the
     grant recipient admitted that he used $56,466 of grant funds to pay off personal
     and/or business debts and that an additional $21,033 was stolen by a business
     colleague. On June 22, 2012, the Office of Procurement Executive proposed debar-
     ment of the subject for 3 years. (C2011-100)



     FALSE STATEMENTS
     OIG conducted a joint investigation with the Department of Housing and Urban
     Development OIG of a Department employee who provided false statements in order
     to qualify for a Federal Housing Administration (FHA) mortgage loan. The inves-
     tigation determined that the employee created, altered, and/or submitted false leave
     and earnings statements, W-2 forms, bank statements, and child support checks and
     submitted them in order to obtain an FHA-insured mortgage loan in the amount of
     $390,837. On January 4, 2012, the subject resigned from her employment with the
     Department. On July 9, 2012, the former employee was sentenced in U.S. District
     court to eight months of home detention, 36 months’ probation, and was ordered to
     pay $900 in restitution as well as a $100 special assessment. (C2011-005)




44   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
GRANT FRAUD
OIG conducted an investigation into allegations that an official at a university
misrepresented work under a Department grant as complete; authorized improper
payments; and misdirected funds. The investigation determined that the university
accepted $96,500 from the Department to publish and translate a collection of testi-
monials. The university failed to produce the collection, and the monies remained
unspent. On June 8, 2011, the university was designated as a high risk grantee for
any future Department grants. On July 30, 2012, the university returned $97,043 to
the Department ($96,500 plus $543 in interest). (C2011-070)



BRIBERY
OIG conducted an investigation based upon allegations that two employees of a
Department contractor paid bribes to officials of the local government during the
course of the construction of a new embassy compound. The investigation deter-
mined that the two employees paid approximately $2,400 in bribes during the
embassy construction.
On July 26, 2012, the Office of the Procurement Executive proposed debarment of
the two contractor employees for 3 years. (C2008-097)



EMPLOYEE MISCONDUCT
OIG conducted an investigation into allegations received from the Department
of Homeland Security OIG that a Department employee improperly accessed visa
records in the Consolidated Consular Database (CCD) for personal reasons. When
interviewed by OIG, the subject admitted to accessing and sharing three separate
records from the CCD with an outside entity. The subject was also found to have
made a false statement in an attempt to mitigate her actions during her interview
with the agents. On June 29, 2012, the Bureau of Human Resources proposed a
10-day suspension of the employee. (C2012-016)
OIG conducted an investigation of a Department supervisory employee who func-
tioned as a contracting officer’s representative and who was determined to have
violated several regulations by creating the appearance of use of public office for
private gain, exceeding the scope and authority of his contracting warrant, and
viewing and transferring sexually explicit material on his government computer. On
June 13, 2012, the Bureau of Human Resources proposed a 10-day suspension of the
supervisor. (C2009-120)




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   45
     DATA AND INVESTIGATIVE ACTIVITIES

     Hotlines
                            Total Complaints Received                1,193
                            Referral To Other Offices for Action       723
                            Held for Action Within OIG                 66
                            No Action Necessary                       404


     Types of Cases

                                          All
                           Passport &
                                         Other
                                          6%
                            Visa Fraud                   Contract &
                                6%
                   Embezzlement                      Procurement Fraud
                    & Theft 7%                              35%
                 Conflict of Interest
                         9%

                        False Statements          Employee
                            & Claims              Misconduct
                               13%                   23%




     Note: May not equal 100% due to rounding.




46   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
APPENDIX 1: INVESTIGATIVE
ACTIVITIES

          Preliminary Inquiries
            Opened                                                              17
            Closed                                                              31
          Investigations
            Opened                                                              48
            Closed                                                              79
            Pending (9/30/12)                                                  138
          Criminal Actions
            Referrals for Prosecution                                           13
            Indictments/Informations                                             5
            Convictions                                                          4
            Sentencings (Months Imprisonment)                                   26
            Sentencings (Months Probation)                                     144
            Declinations                                                        12
          Civil Actions
            Civil Referrals                                                      3
            Civil Judgments                                                      0
            Civil Declinations                                                   1
          Administrative Referrals
            Referrals for Personnel Action                                       3
            Suitability Referrals to DS                                          4
            Contractor Suspensions/Debarment Referrals to OPE                   13
          Administrative Actions
            Removals                                                             0
            Suspensions                                                          4
            Reprimand/Admonishments/Warning Memorandum                          11
            Contractors/Grantees Suspended                                       1
            Contractors/Grantees Debarred                                       19
            Contractors/Grantees High Risk                                       0
          Monetary Recoveries
            Criminal Fines/Recoveries                                $7,735,281.69
            Civil Recoveries                                           $151,768.86
            Administrative Recoveries                                  $155,725.12
           Total Investigative Recoveries                           $8,042,775.67




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   47
48   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
APPENDIX 2: REPORTS ISSUED

 Report Number         Report Title

 AUD-CG-12-33          Audit of Contracting Officers Exceeding Delegated Procurement Authority for
                       Overseas Contracts
 AUD-CG-12-35          Review of Costs Charged to Iraq Democracy-Building Grants Awarded to the
                       International Republican Institute During FYs 2004-2010
 AUD-CG-12-40          Audit of Bureau of Oceans and International Environmental and Scientific Affairs
                       Administration and Oversight of Funds Dedicated To Address Global Climate Change
 AUD/FM-12-37          Independent Auditor’s Report on the International Boundary and Water Commission,
                       United States and Mexico, U.S. Section, 2011 and 2010 Financial Statements
 AUD/FM-12-38          Management Letter Related to the Audit of the International Boundary and Water
                       Commission, United States and Mexico, U.S. Section, 2011 and 2010 Financial
                       Statements
 AUD-FM-12-39          Audit of Department of State Use of Consular Fees Collected in Support of the Border
                       Security Program
 AUD/IT-12-44          Audit of Department of State Access Controls for Major Applications
 AUD/MERO-12-29        Evaluation of the Antiterrorism Assistance Program for Countries Under the Bureaus
                       of Near Eastern Affairs and South and Central Asian Affairs
 AUD/MERO-12-43        Evaluation of Invoices and Payments for the Embassy Baghdad Operations and
                       Maintenance Contract
 AUD-MERO-12-46        Evaluation of the Local Guard Force Contract for Embassy Islamabad and Consulates
                       General Karachi, Lahore, and Peshawar
 AUD-MERO-12-47        Compliance Followup Review of Department of State Actions To Reduce the Risk of
                       Trafficking in Persons Violations in Four States in the Cooperation Council for the
                       Arab States of the Gulf
 AUD-SI-12-36          Limited-Scope Audit of Department of State Management of the Afghanistan
                       Civilian Uplift
 AUD/SI-12-48          Outline for Action: Physical Security Concerns at Embassy Berlin
 AUD/SI-12-49          Outline for Action: Physical Security Concerns at Embassy Quito
 ISP-I-12-21           Inspection of the Bureau of Consular Affairs, Directorate of Overseas Citizens Services,
                       Office of Children’s Issues, Office of Policy Review and Interagency Liaison, and the
                       Planning, Programs, and Systems Liaison Division
 ISP-I-12-22           Review of Department of State Activities Concerning the Processing of Refugee
                       Applications and the Provision of Refugee Benefits to Refugees Later Accused of
                       Terrorism-Related Activities
 ISP-I-12-23A          Inspection of Embassy San José, Costa Rica




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012                     49
      Report Number         Report Title

      ISP-I-12-24A          Inspection of Embassy Port-au-Prince, Haiti
      ISP-I-12-25A          Inspection of Embassy Paris, France, and Constituent Posts
      ISP-I-12-26           Inspection of the U.S. Mission to the United Nations Educational, Scientific and
                            Cultural Organization, Paris, France
      ISP-I-12-27           Inspection of the U.S. Mission to the Organization for Economic Cooperation and
                            Development, Paris, France
      ISP-C-12-29A          Compliance Followup Review of Consulate General Hong Kong, China
      ISP-I-12-30           Inspection of the Bureau of Information Resource Management, Systems and
                            Integration Office
      ISP-I-12-31           Inspection of the Bureau of Diplomatic Security, Office of Antiterrorism Assistance
      ISP-I-12-32A          Inspection of the Bureau of Counterterrorism
      ISP-C-12-33A          Compliance Followup Review of Embassy Bangkok and Consulate General
                            Chiang Mai, Thailand
      ISP-I-12-35A          Inspection of Embassy Bandar Seri Begawan, Brunei
      ISP-I-12-36A          Inspection of Embassy Singapore, Singapore
      ISP-I-12-37           Inspection of Office to Monitor and Combat Trafficking in Persons
      ISP-I-12-38A          Inspection of Embassy Nairobi, Kenya
      ISP-I-12-39           Inspection of the Somalia Unit, Embassy Nairobi, Kenya
      ISP-I-12-41A          Inspection of Embassy Lusaka, Zambia
      ISP-I-12-42A          Inspection of Embassy Prague, Czech Republic
      ISP-I-12-45A          Inspection of Embassy Bucharest, Romania
      ISP-I-12-46A          Inspection of Embassy Ljubljana, Slovenia
      ISP-I-12-47           Inspection of the American Institute in Taiwan/Washington
      ISP-I-12-48           Memorandum Report on Improving Leadership at Posts and Bureaus
      ISP-I-12-49           Support for Department Employees Serving in Afghanistan, Iraq, and Pakistan
      ISP-I-12-50           Review of the Department of State’s Shuttle Bus Fleet Operations
      ISP-I-12-51           Assessment of the Department of State’s Motor Vehicle Fleet
      ISP-I-12-52A          Inspection of Embassy Madrid, Spain, and Constituent Posts
      ISP-I-12-53A          Inspection of Embassy Lisbon, Portugal, and Constituent Posts
      ISP-I-12-54           Inspection of the Bureau of Administration, Global Information Services,
                            Office of Information Programs and Services
      ISP-C-12-28A          Compliance Followup Review of Embassy Islamabad and Constituent Posts, Pakistan




50   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
CLASSIFIED REPORTS ISSUED
 Report Number         Report Title

 AUD-IT-12-41          Evaluation of the Information Security Program for Sensitive Compartmented
                       Information Systems at the Department of State for FY 2012
 ISP-S-12-23A          Classified Annex to the Inspection of Embassy San José, Costa Rica
 ISP-S-12-24A          Classified Annex to the Inspection of Embassy Port-au-Prince, Haiti
 ISP-S-12-25A          Classified Annex to the Inspection of Embassy Paris, France, and
                       Constituent Posts
 ISP-S-12-28A          Compliance Followup Review of Embassy Islamabad and Constituent Posts,
                       Pakistan
 ISP-S-12-29A          Classified Annex to the Compliance Followup Review of Consulate General
                       Hong Kong, China
 ISP-S-12-32A          Classified Annex to the Inspection of the Bureau of Counterterrorism
 ISP-S-12-33A          Classified Annex to the Compliance Followup Review of Embassy Bangkok
                       and Consulate General Chiang Mai, Thailand
 ISP-S-12-35A          Classified Annex to the Inspection of Embassy Bandar Seri Begawan, Brunei
 ISP-S-12-36A          Classified Annex to the Inspection of Embassy Singapore, Singapore
 ISP-S-12-38A          Classified Annex to the Inspection of Embassy Nairobi, Kenya
 ISP-S-12-41A          Classified Annex to the Inspection of Embassy Lusaka, Zambia
 ISP-S-12-42A          Classified Annex to the Inspection of Embassy Prague, Czech Republic
 ISP-S-12-45A          Classified Annex to the Inspection of Embassy Bucharest, Romania
 ISP-S-12-46A          Classified Annex to the Inspection of Embassy Ljubljana, Slovenia
 ISP-S-12-52A          Classified Annex to the Inspection of Embassy Madrid, Spain, and
                       Constituent Posts
 ISP-S-12-53A          Classified Annex to the Inspection of Embassy Lisbon, Portugal, and
                       Constituent Posts




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012       51
52   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES

TABLE 1: INSPECTOR GENERAL ISSUED REPORTS WITH
QUESTIONED COSTS
                                                                                   Questioned          Unsupported
                                                                    Number           Costs                Costs
                                                                      of           (Dollars in          (Dollars in
Type of Report                                                      Reports        Thousands)          Thousands)

 A.    For which no management decision had been made                   9*            $153,523*            $38,466*
       by the commencement of the reporting period
B.     Which were issued during the reporting period

       Audits
       Review of Costs Charged to Iraq Democracy-Building                1                 $287                   $0
       Grants Awarded to the IRI During FYs 2004-2010
       (AUD/CG-12-35)

       Evaluations
       Evaluation of Invoices & Payments for the Embassy                 1               $4,412              $1,676
       Baghdad Operations & Maintenance Contract
       (AUD-MERO-12-43)

       Total issued during the reporting period                          2               $4,700              $1,676
       Subtotals (A+B)                                                  11            $158,223             $40,143

 C.    For which a management decision was made
       during the reporting period
       (i) dollar value of disallowed costs                              1               $2,003                   $0
       (ii) dollar value of costs not disallowed                         3              $26,811                 $64

 D.    For which no management decision has been                         9             $129,408            $40,079
       made by the end of the reporting period
       Reports for which no management decision                          7             $124,708             $38,403
       was made within six months of issuance

 * Final amounts in the previous SAR were adjusted based on updated information and an analysis of open recommendations.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012                              53
     TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                           Number
                                                                                             of              Dollars
      Type of Report                                                                       Reports       (in Thousands)

      A. For which no management decision had been made by the                                21*           $247,937*
         commencement of the reporting period
     B.    Which were issued during the reporting period
           Audits                                                                              1
           Evaluations                                                                         1
           Inspections                                                                        11
                                                                                              13                $7,346
           Total issued during the reporting period
           Subtotals (A+B)                                                                    34            $255,284

      C. For which a management decision was made during the                                                 $124,329
         reporting period
           (i) dollar value of recommendations that were agreed                                6               $93,465
               to by management
               – based on proposed management action
               – based on proposed legislative action
           (ii) dollar value of recommendations that were not agreed                           3              $30,864
                to by management

      D. For which no management decision has been made by the                                29             $130,954
         end of the reporting period
           Reports for which no management decision was made                                  16             $123,608
           within six months of issuance

      Note: Figures are approximate due to rounding, and totals may not add up.

      * Final amounts in the previous SAR were adjusted based on updated information and an analysis of open recommendations.




54   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
Data for Itemized Audits, Evaluations, and Inspections from
Table 2, Section B.

                                                                           Number
                                                                             of          Dollars
 Type of Report                                                            Reports   (in Thousands)

 Audits

 Audit of Bureau of OES Administration & Oversight of Funds Dedicated to      1           $600
 Address Global Climate Change (AUD/CG-12-40)

 Evaluations

Evaluation of the ATA Program for Countries Under the Bureaus of Near         1         $1,500
Eastern Affairs & South & Central Asian Affairs (AUD/MERO-12-29)

 Inspections

Compliance Followup Review of Consulate General                               1            $90
Hong Kong, China (ISP/C-12-29A)

 Inspection of Embassy San Jose, Costa Rica (ISP/I-12-23A)                    1           $572

Inspection of Embassy Paris, France (ISP/I-12-25A)                            1            $79

Inspection of United Nations Education, Scientific                            1            $30
& Cultural Organization (ISP/I-12-26)

Inspection of Organization for Economic Cooperation                           1           $234
& Development, France (ISP/I-12-27)

Inspection of Embassy Bandar Seri Begawan, Brunei (ISP/I-12-35A)              1           $158

 Inspection of Embassy Singapore, Singapore (ISP/I-12-36A)                    1           $448

 Inspection of Embassy Nairobi, Kenya (ISP/I-12-38A)                          1          $1,778

 Inspection of Embassy Prague, Czech Republic (ISP/I-12-42A)                  1           $473

 Inspection of Embassy Madrid, Spain (ISP/I-12-52A)                           1           $100

 Inspection of Embassy Lisbon, Portugal (ISP/I-12-53A)                        1          $1,285




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012         55
56   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS


SIGNIFICANT OFFICE OF AUDITS RECOMMENDATIONS
PENDING FINAL ACTION

 Report             Rec.    Report Title                                                     First
 Number             No.     Recommendation Summary                                           Reported

AUD/IQO-07-20               Review of DynCorp International, LLC, Contract                        1/07
                            Number S-LMAQM-04-C-0030, Task Order 0338, for
                            the Iraqi Police Training Program Support (Joint audit
                            with the Special Inspector General for Iraq Reconstruction)
                      2     OIG recommended the Office of Acquisitions Management
                            seek reimbursement from DynCorp for the improperly
                            authorized payment of $4.2 million that represents contrac-
                            tually unauthorized work directed by the Iraqi Ministry of
                            Interior. This work included the relocation of the residential
                            camp, the manufacture of additional VIP trailers, and the
                            construction of an Olympic-size swimming pool.
 AUD/IQO-07-48              Accounting for Government-Owned Personal Property                     9/07
                            Held by Selected Contractors in Afghanistan
                      1     OIG recommended the Department develop and implement
                            policies and procedures to achieve compliance with Federal
                            Acquisition Regulation requirements for reviewing a contrac-
                            tor’s property control system.
                      5     OIG recommended the Department evaluate its
                            current structure for monitoring government property
                            held by contractors, assess the benefits of creating a
                            property administrator function, and use this evalua-
                            tion to clearly define the authority and responsibility
                            for property oversight for each member of its contract
                            administration team.
 AUD/IQO-09-25              Audit of the Design and Construction of the New Embassy              10/09
                            Compound in Baghdad, Iraq
                      1     OIG recommended that the Contracting Officer, Bureau of
                            Administration, Office of Logistics Management, attempt
                            to recover $4.6 million from First Kuwaiti Trading and
                            Contracting for the infrastructure contract to make the
                            necessary corrections to the safe areas in the New Embassy
                            Compound.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012            57
      Report             Rec.    Report Title                                                         First
      Number             No.     Recommendation Summary                                               Reported

                           2     OIG recommended that the Contracting Officer,
                                 Bureau of Administration, Office of Logistics
                                 Management, attempt to recover $14 million for the
                                 housing, infrastructure, support facilities, and the
                                 chancery contracts from First Kuwaiti Trading and
                                 Contracting to perform the necessary design and retro-
                                 fit of seismic bracing in the New Embassy Compound.
                           4     OIG recommended that the Contracting Officer, Bureau of
                                 Administration, Office of Logistics Management, attempt to
                                 recover $1.7 million for contracts from First Kuwaiti Trading
                                 and Contracting for the housing, infrastructure, support facili-
                                 ties, and the chancery contracts so that the necessary repairs to
                                 the exterior walls and walkway and road surfaces can be made.
                           6     OIG recommended that the Contracting Officer, Bureau of
                                 Administration, Office of Logistics Management, attempt to
                                 recover approximately $500,000 from First Kuwaiti Trading
                                 and Contracting for the infrastructure contract to increase
                                 the penthouse size and air flow through the louvers of the
                                 Utility Building.
                           7     OIG recommended that the Contracting Officer, Bureau of
                                 Administration, Office of Logistics Management, attempt to
                                 recover approximately $11 million from First Kuwaiti Trading
                                 and Contracting for the infrastructure contract to compen-
                                 sate the Department of State for additional operating costs
                                 that will be incurred because the configuration of the Utility
                                 Building/Generator Plant was changed from the 10 2-mega-
                                 watt configuration to 18 1-megawatt generators.
                           8     OIG recommended that the Contracting Officer, Bureau of
                                 Administration, Office of Logistics Management, attempt
                                 to recover between $4.2 million and $4.4 million from First
                                 Kuwaiti Trading and Contracting for the infrastructure contract
                                 to correct all deficiencies to the electrical wiring, control, and
                                 distribution systems at the New Embassy Compound.
                           9     OIG recommended that the Contracting Officer, Bureau of
                                 Administration, Office of Logistics Management, attempt to
                                 recover an estimated $500,000 from First Kuwaiti Trading
                                 and Contracting for the infrastructure contract so that the
                                 necessary functions can be added to the building automation
                                 system at the New Embassy Compound.
                           10    OIG recommended that the Contracting Officer, Bureau of
                                 Administration, Office of Logistics Management, attempt
                                 to recover $4.6 million from First Kuwaiti Trading and
                                 Contracting to correct fire system deficiencies for the
                                 staff diplomatic apartments ($3.5 million for the housing
                                 contract) and repair the water main distribution system
                                 joints ($1.1 million for the infrastructure contract).


58   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
 Report             Rec.    Report Title                                                     First
 Number             No.     Recommendation Summary                                           Reported

                      11    OIG recommended that the Contracting Officer, Bureau of
                            Administration, Office of Logistics Management, attempt
                            to recover approximately $1.5 million from First Kuwaiti
                            Trading and Contracting for the infrastructure and housing
                            contracts to correct deficiencies in the plumbing traps at the
                            New Embassy Compound.
                      12    OIG recommended that the Contracting Officer, Bureau of
                            Administration, Office of Logistics Management, attempt
                            to recover approximately $33 million that was paid to First
                            Kuwaiti Trading and Contracting to perform and document
                            the required design work for the New Embassy Compound
                            Baghdad contracts.
                      13    OIG recommended that the Contracting Officer, Bureau of
                            Administration, Office of Logistics Management, attempt to
                            recover approximately $38 million for the housing, infra-
                            structure, support facilities, chancery, and pre-engineered
                            buildings to compensate the U.S. Government for the higher
                            future maintenance costs and negotiate a settlement with
                            First Kuwaiti Trading and Contracting to fund the addi-
                            tional long-term maintenance costs.
                      14    OIG recommended that the Contracting Officer, Bureau of
                            Administration, Office of Logistics Management, attempt
                            to recover approximately $3.8 million for the housing, infra-
                            structure, site facilities, and chancery contracts that First
                            Kuwaiti Trading and Contracting did not perform or that it
                            performed incorrectly related to commissioning activities.
 MERO-I-11-02               Performance Evaluation of PAE Operations and Maintenance              2/11
                            Support for the Bureau of International Narcotics and Law
                            Enforcement Affairs' Counternarcotics Compounds in Afghanistan
                      2     OIG recommended that the Bureau of International
                            Narcotics and Law Enforcement Affairs implement a quality
                            assurance surveillance plan to evaluate and measure overall
                            contractor performance and the performance of subcontrac-
                            tors in operations and maintenance support against the
                            contract and task order to determine if the contractor and
                            subcontractors are providing the required services.
                      3     OIG recommended that the Bureau of International
                            Narcotics and Law Enforcement Affairs ensure that
                            a sufficient number of dedicated contracting officer's
                            representatives are physically present in Afghanistan to
                            provide proper oversight of the contracts for opera-
                            tion and maintenance support at the counternarcotics
                            compounds.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012            59
      Report             Rec.    Report Title                                                        First
      Number             No.     Recommendation Summary                                              Reported

                           6     OIG recommended that the Bureau of International
                                 Narcotics and Law Enforcement Affairs, in coordination
                                 with Embassy Kabul and in consultation with the Drug
                                 Enforcement Administration, evaluate the physical security
                                 requirements at the Kabul counternarcotics compound.
                           7     OIG recommended that the Office of Acquisition Management
                                 require PAE to incorporate engineering data into the main-
                                 tenance and operations support plan for the counternarcotics
                                 compound in Kunduz, resolve construction deficiencies in the
                                 laundry facility and kitchen, and assess the electric power needs
                                 of the compound before purchasing new diesel generators.
                           9     OIG recommended that the Bureau of International
                                 Narcotics and Law Enforcement Affairs ensure all guards at
                                 the counternarcotics compound in Kunduz are familiar with
                                 standard operating procedures for security and that guards
                                 are getting sufficient rest and days off.
      MERO-I-11-05               Performance Evaluation of PAE Operations and Maintenance                 1/11
                                 Support At Embassy Kabul, Afghanistan
                           2     OIG recommended that the Bureau of Administration seek
                                 reimbursement of $193,600 from PAE for award fees paid for
                                 all four quarters of the base year of the contract (September
                                 2005-September 2006), since performance criteria had not
                                 yet been established or authorized for that year.
                           3     OIG recommended that the Bureau of Administration seek
                                 reimbursement of $41,730 from PAE for award fees granted
                                 based on points earned for training in option years 1-3
                                 (September 2006-September 2009), since all training-related
                                 work was completed at the end of the base year (September
                                 2005-September 2006).
                           6     OIG recommended that Embassy Kabul seek reimbursement
                                 for overpayment of $346,682 to the Afghan fuel vendor,
                                 National Fuel, Inc., for fuel from September 2005 through
                                 April 2010.
                           10    OIG recommended that Embassy Kabul, in consultation
                                 with the Bureau of Overseas Buildings Operations, deter-
                                 mine whether the location of fire suppression sprinklers over
                                 the high voltage switchgear in the power plant is a potential
                                 fire hazard that needs to be addressed.
                           12    OIG recommended that the Bureau of Administration seek
                                 reimbursement of $248,820 from PAE for escort services
                                 invoiced and paid for, but not rendered, from March 2009
                                 through June 2010.
                           16    OIG recommended that the Bureau of Administration modify
                                 the PAE contract to include Federal Acquisition Regulation
                                 clause 52.222-50 (Combating Trafficking in Persons).


60   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
 Report             Rec.    Report Title                                                      First
 Number             No.     Recommendation Summary                                            Reported

 AUD/CG-11-30               DoD and DOS Need Better Procedures to Monitor and Expend                7/11
                            DoD Funds for the Afghan National Police Training Program
                      A.1   OIG recommended that the Executive Director, Bureau of
                            International Narcotics and Law Enforcement Affairs, in
                            coordination with the Chief Financial Officer, Bureau of
                            Resource Management, return the $15.56 million of DoD
                            funds that were outside the scope of the reimbursable agree-
                            ment by August 31, 2011. Specifically, return and document
                            the following amounts:
                             a. $2.59 million potentially moved to Department of State
                             administrative costs.
                             b. $1.15 million obligated for the Department of Justice
                             Federal Prosecutors Program, or provide documentation to
                             the Under Secretary of Defense for Policy and the Under
                             Secretary of Defense (Comptroller)/Chief Financial Officer,
                             DoD, and DoD officials agreed that the $1.15 million was
                             within the scope of the reimbursable agreement.
                             d. $11.81 million obligated for a DynCorp equitable adjust-
                             ment for contract task order S-AQMPD-04F-0460, awarded
                             in 2004 before the 2006 agreement.
                     A.2    OIG recommended that the Executive Director, Bureau
                            of International Narcotics and Law Enforcement Affairs,
                            in coordination with the Contracting Officer, Bureau of
                            Administration, Office of Logistics Management, Office of
                            Acquisitions Management:
                             a. Determine how much of the $68.21 million of unex-
                             pended obligations remaining on task order S-AQMPD-
                             05F-4305 can be deobligated. As part of the review, include
                             the DoD obligation amount that DynCorp certified as avail-
                             able for deobligation, as well as an analysis on the remaining
                             unexpended obligation amounts. In addition, provide the
                             Department of State, Office of Inspector General, support-
                             ing documentation for the remaining amount of the $68.21
                             million that the Bureau of International Narcotics and Law
                             Enforcement Affairs identifies as still valid.
                             b. Determine how much of the $23.04 million of DoD
                             unexpended obligations remaining on the in-country air
                             support contract (S-AQMPD-05-C-1103) can be deobli-
                             gated. In addition, provide the Department of State, Office
                             of Inspector General, supporting documentation for the
                             remaining amount of the $23.04 million that the Bureau of
                             International Narcotics and Law Enforcement Affairs identi-
                             fies as still valid.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012              61
      Report             Rec.    Report Title                                                    First
      Number             No.     Recommendation Summary                                          Reported

                          A.3    OIG recommended that the Executive Director, Bureau
                                 of International Narcotics and Law Enforcement Affairs,
                                 provide supporting documentation to the Department of
                                 State Inspector General by July 29, 2011, for the $2.25
                                 million of unsupported obligations identified in this report
                                 or return the $2.25 million to Department of Defense by
                                 August 30, 2011. Specifically, the Executive Director should
                                 review and, if necessary, deobligate the following amounts:
                                   a. $1.65 million obligated for Department of State salaries
                                   using DoD funds provided in the 2006 reimbursable
                                   agreement.
                           A.5   OIG recommended that the Executive Director, Bureau of
                                 International Narcotics and Law Enforcement Affairs:
                                   b. Develop, implement, and document adequate controls to
                                   ensure that the Bureau of International Narcotics and Law
                                   Enforcement Affairs uses DoD funds for specific purposes
                                   in accordance with laws and documents the appropriate
                                   use. Specifically, officials should:
                                     1. Designate the appropriate offices responsible for
                                     ensuring that the obligation directly relates to the
                                     requirements in the reimbursable agreements.
                                     2. Retain documentation supporting that the obliga-
                                     tion is in compliance with the reimbursable agreement
                                     requirements.
                          A.6    OIG recommended that the Director, Bureau of
                                 Administration, Office of Logistics Management, Office of
                                 Acquisitions Management, require all contracting officers
                                 and supporting staff to take an appropriations law training
                                 class.
                           A.9   OIG recommended that the Executive Director, Bureau of
                                 International Narcotics and Law Enforcement Affairs; Under
                                 Secretary of Defense for Policy; and Under Secretary of
                                 Defense (Comptroller)/Chief Financial Officer, DoD, reach
                                 an agreement as to whether the $9.50 million obligation for
                                 a United Nations Law and Order Trust Fund–Afghanistan
                                 contribution was appropriately obligated. If officials do not
                                 reach an agreement, the Bureau of International Narcotics
                                 and Law Enforcement Affairs should return the $9.50 million
                                 of DoD funds obligated for a United Nations Law and Order
                                 Trust Fund–Afghanistan contribution.




62   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
 Report             Rec.     Report Title                                                    First
 Number             No.      Recommendation Summary                                          Reported

                     C.2.b   OIG recommended that the Assistant Secretary of State,
                             Bureau of International Narcotics and Law Enforcement
                             Affairs, in coordination with the contracting officer, Bureau
                             of Administration, Office of Logistics Management, Office
                             of Acquisitions Management, for the Civilian Police contract,
                             review the approximately $9.4 million in questioned costs
                             identified by the Defense Contract Audit Agency (DCAA)
                             and take action to recover those costs.
 AUD/CG-11-44                Afghan National Police Training Program Would Benefit from           8/11
                             Better Compliance With the Economy Act and Reimbursable
                             Agreements
                      1      OIG recommended that the Assistant Secretary of State,
                             Bureau of International Narcotics and Law Enforcement
                             Affairs, in coordination with the Assistant Secretary of
                             State, Bureau of Resource Management and Chief Financial
                             Officer:
                                b. Review all available supporting documentation related
                                to Corrections System Support Program (CSSP) security
                                salaries and recover any overpayments related to the $0.37
                                million paid to DynCorp for CSSP security salaries and
                                identify and recover any additional payments made for
                                CSSP security salaries on task orders 4305 and 5375.
                                c. Determine whether the Bureau of International Narcotics
                                and Law Enforcement Affairs improperly obligated
                                DoD-provided Afghanistan Security Forces Fund appro-
                                priations for any other INL programs that were receiving
                                support on the DoD-funded task orders. If so, identify and
                                return to DoD the applicable Afghanistan Security Forces
                                Fund appropriations by September 30, 2011.
                      3      OIG recommended that the Assistant Secretary of State,
                             Bureau of Resource Management and Chief Financial
                             Officer, and the Director, Defense Security Cooperation
                             Agency, perform a joint investigation of the potential
                             Antideficiency Act violations for the $1.05 million of funds
                             obligated for Personal Services Contracts and the estimated
                             $75.60 million of funds obligated without considering
                             Economy Act and reimbursable agreement limitations.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012            63
     SUMMARY OF OFFICE OF AUDITS REPORTS WITHOUT
     MANAGEMENT DECISION FOR MORE THAN SIX MONTHS
     Report Number: MERO-I-11-05
     Subject: PAE Maintenance and Operations at Embassy Kabul
     Date Issued: January 4, 2011
     Reason for not being resolved: OIG recommended that Embassy Kabul stop
     payment of labor fees to PAE for repairs and other unexpected tasks when this work
     by is performed by PAE personnel during routine duty hours under the firm fixed-
     price portion of the contract. Embassy Kabul responded September 18, 2012, and
     stated that it is closely monitoring PAE’s special projects work; however, the Embassy
     did not address OIG’s primary concern relating to double billing for labor charges.
     Therefore, Recommendation 4 remains unresolved.
     Projected date of resolution: November 2012



     Report Number: AUD/CG-11-30
     Subject: Department of Defense Funds provided to Department of State for the
     Afghan National Police
     Date Issued: July 11, 2011
     Reason for not being resolved: OIG recommended that the Department identify
     and return obligations not likely to be expended, return unobligated funds to the
     Department of Defense that were determined to be outside the scope of reimbursable
     agreements, and perform a joint investigation with the Defense Security Cooperation
     Agency of potential Antideficiency Act violations of funds obligated outside the
     scope of the reimbursable agreements. The Bureau of International Narcotics and
     Law Enforcement Affairs stated that it will work to deobligate funds not likely to
     be expended but that the final deobligation of funds will not be completed until
     final invoices have been received and stated that documentation is being prepared to
     support that funds were used appropriately. In addition, the Bureau of Comptroller
     and Global Financial Services was requested to respond to recommendations by
     February 6, 2012. However, OIG had not received a response as of the end of the
     reporting period. Therefore, eight recommendations (Nos. A.4, A.5.a, and A.8.a, b, c,
     d, e, and f) remain unresolved.
     Projected date of resolution: February 2013




64   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
Report Number: AUD/CG-11-44
Subject: Afghan National Police Training Program Would Benefit from Better
Compliance With the Economy Act and Reimbursable Agreements
Date Issued: August 25, 2011
Reason for not being resolved: OIG recommended that the Department of State
identify and return funds to the Department of Defense that were improperly obli-
gated; develop and implement policies and procedures to ensure that any appropria-
tion limitations on funds transferred to other U.S. Government agencies were taken
into account before obligating funds for personal services contracts; and develop poli-
cies and procedures to ensure that that before obligating funds under an Economy
Act order, the Department validated that the ordering agency had the necessary
authority to obligate funds for those purposes. The Bureau of International Narcotics
and Law Enforcement Affairs was requested to respond to the recommendation by
January 9, 2012. However, OIG had not received a response as of the end of this
reporting period. Therefore, three recommendations (Nos. 1. a, d, and e) remain
unresolved.
Projected date of resolution: December 2012



Report Number: AUD/IT-12-14
Subject: Evaluation of Department of State Information Security Program
Date Issued: November 15, 2011
Reason for not being resolved: OIG recommended that the Department of State
establish procedures to identify the total number of contractors who have access to
Department of State systems, as required by Office of Management and Budget
Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management. The Department
responded that it intended to comply by providing role-based security training and
awareness to all employees, including contactors but did not agree to identify the total
number of contractors who have access to Department of State systems as required
by Office of Management and Budget Memorandum M-11-33. OIG will reassess the
status of this recommendation in its audit of the Department’s Information Security
Program for FY 2012. Therefore, Recommendation 18 remains unresolved.
Projected date of resolution: November 2012




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   65
     REVISED MANAGEMENT DECISIONS
     None.


     MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
     RECOMMENDATIONS
     None.


     SIGNIFICANT INSPECTIONS RECOMMENDATIONS PENDING
     FINAL ACTION

      Report             Rec.    Report Title                                                       First
      Number             No.     Recommendation Summary                                             Reported

      ISP/I-11-57                Inspection of the Office of the Director of U.S. Foreign             08/2011
                                 Assistance
                           6     OIG recommended that the Office of the Director of U.S.
                                 Foreign Assistance, in coordination with the Bureau of
                                 Resource Management, should prepare a study to determine
                                 whether there are cost effective solutions for collecting timely
                                 data on budget execution and making the data accessible
                                 to the Office of the Director of U.S. Foreign Assistance, its
                                 operating units, and stakeholders.
      ISP/I-11-11                Inspection of Department-Required and Congressionally                10/2010
                                 Mandated Reports: Assessment of Resource Implications
                           3     OIG recommended that the Office of Management Policy,
                                 Rightsizing and Innovation, in coordination with the Bureau
                                 of Budget and Planning (formerly the Bureau of Resource
                                 Management, should direct all missions to document the
                                 approximate costs (to reflect time and pay scales of personnel
                                 involved) that are devoted to the preparation of congres-
                                 sionally mandated and Department reports, and include this
                                 data in annual budget requests.
      ISP/I-11-55A               Inspection of Embassy Seoul, Korea                                   08/2011
                           12    OIG recommended that the Bureau of Overseas Buildings
                                 Operations should identify and evaluate the costs associ-
                                 ated with the United States Forces Korea’s departure from
                                 the Yongsan Garrison and accelerate the construction of
                                 Embassy Seoul’s new embassy compound project on the
                                 Capital Security Construction Program schedule.




66   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
 Report             Rec.    Report Title                                                        First
 Number             No.     Recommendation Summary                                              Reported

                      13    OIG recommended that the Bureau of Overseas Buildings
                            Operations, in coordination with Embassy Seoul, should
                            conduct a design survey for the new embassy compound and
                            prepare a comprehensive mission facilities master plan.
 ISP/I-12-15                Inspection of the Bureau of Educational and Cultural Affairs          02/2012
                      1     OIG recommended that the Bureau of Educational and
                            Cultural Affairs should conduct strategic budget planning
                            exercises for all its program offices using the review in the
                            Office of Professional and Cultural Exchanges as a model.
                      6     OIG recommended that the Bureau of Educational and
                            Cultural Affairs, in coordination with the Office of the
                            Under Secretary for Public Diplomacy and Public Affairs,
                            should implement programmatic and funding mechanisms
                            so that bureau programs can respond effectively to urgent
                            policy needs.
                      15    OIG recommended that the Bureau of Educational and
                            Cultural Affairs, in coordination with the regional bureaus,
                            should issue guidelines so that the relevant embassy is
                            included in communications from the bureau to binational
                            Fulbright Commissions, the guidelines should also advise
                            embassy representatives on binational governing boards of
                            their oversight and management responsibilities.
                      30    OIG recommended - the Bureau of Educational and
                            Cultural Affairs should establish maximum numbers of
                            sponsor organizations and participants for each J visa
                            program that its current resources and capacity can manage
                            with appropriate quality controls.
                      32    OIG recommended the Bureau of Educational and Cultural
                            Affairs should implement a plan to conduct on-site reviews
                            of every sponsor organization at least once every two years as
                            part of the redesignation process, increasing designation fees
                            as necessary to defray travel and per diem costs.
                      35    OIG recommended the Bureau of Educational and Cultural
                            Affairs, in coordination with the Office of the Legal Adviser,
                            implement an annual program audit requirement for desig-
                            nated sponsors in every J Visa program.
                      36    OIG recommended the Bureau of Educational and Cultural
                            Affairs, in coordination with the Bureau of Consular Affairs,
                            the Office of the Legal Adviser, and the Bureau of Legislative
                            Affairs, should submit a proposal to the Deputy Secretary
                            for Resources and Management to determine the viability of
                            ending or transferring its current responsibilities for the alien
                            physician, au pair, intern, teacher, and trainee programs to
                            the Department of Labor.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012               67
      Report             Rec.    Report Title                                                         First
      Number             No.     Recommendation Summary                                               Reported

                           37    OIG recommended the Bureau of Consular Affairs, in coor-
                                 dination with the Bureau of Educational and Cultural Affairs,
                                 should prepare a report reflecting how its recommendations
                                 to the Department of Homeland Security concerning Section
                                 212(e) waiver requests properly balance the intent of the
                                 Fulbright Hays Act with other relevant policy considerations.
                           38    OIG recommended the Bureau of Educational and Cultural
                                 Affairs should establish a process to refer creditable allegations
                                 of criminal activity to the Bureau of Diplomatic Security, the
                                 Office of Inspector General’s Office of Investigations, or to an
                                 appropriate law enforcement organization.
                           40    OIG recommended the Bureau of Educational and Cultural
                                 Affairs, in coordination with the Office of the Legal Adviser,
                                 significantly limit the number of sponsors and participants in the
                                 Summer Work Travel program pending implementation of major
                                 regulatory change that will allow more rigorous oversight of the
                                 designation, management, and sanctioning of program sponsors.
                           41    OIG recommended the Bureau of Educational and
                                 Cultural Affairs, in coordination with the Bureau of
                                 Budget and Planning, implement a procedure for gathering
                                 relevant information on its designated sponsors from other
                                 Department of State and U.S. Government entities.
                           54    OIG recommended the Bureau of Administration issue guid-
                                 ance on how to implement the new closeout requirements for
                                 all grants.




     SUMMARY OF INSPECTION REPORTS WITHOUT MANAGEMENT
     DECISION FOR MORE THAN SIX MONTHS
     Report Number: ISP/I-11-47
     Subject: Inspection of the Bureau of South and Central Asian Affairs
     Date Issued: June 2011
     Reason for Not Being Resolved: OIG recommended that the Bureau of South
     Central Asian Affairs (SCA) publish a single policy on requests for extension of 3161
     employment that describes the process by which extension requests will be reviewed,
     approved or denied. OIG also recommended that SCA develop a written rating
     system for employees hired temporarily under 3161 authority, and assigned outside
     Iraq, to make possible a vetting system for reemployment. SCA reported that it has
     no authority over 3161 employment issues and OIG transferred action to S/SRAP. A



68   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
response from the Office of the Special Representative for Afghanistan and Pakistan
is pending.
Projected Date of Resolution: November 2012



Report Number: ISP/I-11-55A
Subject: Report of Inspection of Embassy Seoul, Korea
Date Issued: August 2010
Reason for Not Being Resolved: OIG recommended that Embassy Seoul develop
and implement a plan to transfer a portion of the embassy’s voucher workload to
the Post Support Unit. OIG is working to seek consensus and resolution of the
recommendation.
Projected Date of Resolution: December 2012



Report Number: ISP/I-11-67A
Subject: Inspection of Embassy Helsinki, Finland
Date Issued: September 2011
Reason for Not Being Resolved: OIG recommended that Embassy Helsinki convert
four of its language designated positions to non-language designated positions.
Embassy Helsinki disagreed with the recommendation. OIG is transferring action to
the Bureau of European and Eurasian Affairs (EUR) for resolution.
Projected Date of Resolution: December 2012



Report Number: ISP/I-12-04
Subject: Improvements Needed in IT Contingency Planning
Date Issued: December 2011
Reason for Not Being Resolved: OIG recommended that the Bureau of
Information Resource Management (IRM) include the development and testing of
contingency plans as criteria in the risk scoring methodology for site health of posts
and bureaus. A response from IRM is pending.
Projected Date of Resolution: November 2012



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   69
     Report Number: ISP/I-12-15
     Subject: Inspection of Bureau of Educational and Cultural Affairs (ECA)
     Date Issued: February 2012
     Reason for Not Being Resolved: OIG issued two recommendations requiring the
     Office of the Legal Adviser (L) request a decision from the Office of Management
     and Budget on the extraterritoriality of the Paperwork Reduction Act and, in coordi-
     nation with the Bureau of Educational and Cultural Affairs (ECA) and the Bureau
     of Diplomatic Security (DS), determine whether host family names can be checked
     against law enforcement databases and develop a procedure for processing name
     checks if approved. A response from L remains pending. OIG also recommended that
     ECA assign to relevant regional bureaus the responsibility for signing DS-2019 forms
     for inbound exchange visitor programs that are initiated and funded by overseas
     posts. ECA disagreed with the recommendation. OIG is working with ECA to seek
     consensus and resolution of the recommendation.
     Projected Date of Resolution: November 2012



     Report Number: ISP/I-12-19A
     Subject: Report of Inspection of Tri-Mission Vienna Joint Management Office
     Date Issued: March 6, 2012
     Reason for Not Being Resolved: OIG recommended that Embassy Vienna elimi-
     nate the assistant human resources officer position upon departure of the incumbent.
     Embassy Vienna disagreed with the recommendation. OIG and Embassy Vienna are
     in the process of reaching an acceptable solution to implement the recommendation.
     Projected Date of Resolution: December 2012


     REVISED MANAGEMENT DECISIONS
     None.




70   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
RECOMMENDATIONS

Inspection of Embassy Vienna, Austria (ISP/I-12-16A)
OIG recommended and Embassy Vienna agreed to not fill the eligible family
member position in the American Citizen Services unit when the incumbent
departed, at a recurring funds put to better use of approximately $60,000.

Inspection of Embassy Colombo, Sri Lanka (ISP/I-11-02A)
OIG recommended and Embassy Colombo agreed to establish an interagency appli-
ance and furniture pool savings at a recurring funds put to better use of approxi-
mately $75,000. All agencies at post signed on with the exception of the Department
of Homeland Security (DHS).

Memorandum Report on the Oversight of Rest and Recuperation Travel
Documentation and Certification (ISP/I-11-37)
OIG recommended that the Under Secretary for Management transfer the responsi-
bility for approval and certification of rest and recuperation travel benefits from the
regional bureau to the Office of Allowances (ALS) in the Bureau of Administration
(A) to facilitate timely submission of justifications for continued eligibility for rest
and recuperation travel. The Under Secretary for Management agreed with the
recommendation and transferred responsibility for the approval and certification of
post eligibility for rest and recuperation travel benefits to ALS and updated changes
to applicable section of the Foreign Affairs Manual and Foreign Affairs Handbook.
OIG also recommended that ALS obtain biennial documentation from all overseas
posts currently receiving rest and recuperation travel benefits and reassess justifica-
tions for continued eligibility. A/OPR/ALS reviewed and recertified 181 posts for
eligibility to continue to receive rest and recuperation travel benefits. Of the posts
reviewed, nine (Buenos Aires, Hong Kong, Montevideo, Naha, Panama City, San
Jose, Santiago, Warsaw, and Zagreb) were recommended for termination of rest and
recuperation travel benefits effective November 1, 2012.

Inspection of Embassy New Delhi, India (ISP/I-11-39A)
OIG recommended and Embassy New Delhi agreed to centralize the consular infor-
mation unit functions at either Consulate General Mumbai or Embassy New Delhi.
After a 3-month pilot project, Consular Team India (CTI) determined that the
Non-Immigrant Visa (NIV) section in Mumbai would manage NIV appointments
for all five Indian Posts. This consolidation resulted in a cost savings of $15,000.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   71
     Inspection of Embassy Yaoundé, Cameroon (ISP/I-11-45A)
     OIG recommended and Embassy Yaoundé agreed to prepare a written plan for the
     Under Secretary for Management that outlined the cost savings of closing Embassy
     Branch Office Douala at a cost savings of $3,783,126.

     Inspection of Embassy Beirut, Lebanon (ISP/I-12-10A)
     OIG recommended and Embassy Beirut agreed to abolish a locally employed staff
     human resources assistant position at a cost savings of $25,000.




72   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
APPENDIX 5: AUDITS PERFORMED
BY CONTRACTORS

                                                                                       Type of
 Report Number   Report Title                                          Contractor
                                                                                       Engagement
AUD-CG-12-33     Audit of Contracting Officers Exceeding Delegated     Kearney &       Performance
                 Procurement Authority for Overseas Contract Awards    Company         Audit
AUD-CG-12-35     Review of Costs Charged to Iraq Democracy-Building    Clark Leiper,   Performance
                 Grants Awarded to the International Republican        PLLC            Audit
                 Institute During FYs 2004–2010
AUD-FM-12-37     Independent Auditor’s Report on the International     Clark Leiper,   Financial
                 Boundary and Water Commission, United States          PLLC            Statement
                 and Mexico, U.S. Section, 2011 and 2010 Financial
                 Statements
AUD-FM-12-38     Management Letter Related to the Audit of the         Clark Leiper,   Financial
                 International Boundary and Water Commission,          PLLC            Statement
                 United States and Mexico, U.S. Section, 2011 and 2010
                 Financial Statements




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012        73
74   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
APPENDIX 6: PEER REVIEWS OF
OIG OPERATIONS

During this semiannual reporting period, the Office of Audits did not undergo
a peer review, and there are no pending recommendations from previous reviews.
The last AUD peer review was conducted by the National Aeronautics and Space
Administration, with a report issued on October 12, 2009. The next peer review for
AUD will be conducted by the Department of the Interior.
The Office of Investigations (INV) did not have an external peer review of its
investigative operations during this reporting period. The last review conducted in
September 2011 by the Railroad Retirement Board, Office of Inspector General
found the Office of Investigations to be in compliance with the internal safeguards
and management procedures standards set by the Council of Inspectors General on
Integrity and Efficiency, and did not make any formal recommendations in its report.
INV’s next peer review wll be conducted by the Tennessee Valley Authority in 2014.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   75
76   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
BROADCASTING
  BOARD OF
 GOVERNORS
78   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
OFFICE OF AUDITS

During this reporting period, OIG completed four analytical desk reviews of single
audits for two BBG entities as follows: Middle East Broadcasting Networks, Inc., for
FY 2010 and FY 2011 and Radio Free Europe/Radio Free Liberty, Inc., and Subsidiary
for FY 2010 and FY 2011.
The desk reviews were required by OMB Circular A-133, Audits of States, Local
Governments, and Nonprofit Organizations. (Information on these desk reviews is
in the section “Department of State, Office of Audits, Security and Intelligence,
Nonfederal Audits of Nonprofit Institutions.”)




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   79
80   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
OFFICE OF INSPECTIONS

Compliance Followup Review of Broadcasting Board of Governors Operations,
Thailand (ISP-IB/C-12-34)
The Broadcasting Board of Governors (BBG) operations in Thailand were run well,
despite uncertainties about the future of the transmitting station in Udorn. BBG
headquarters was still conducting the strategic review of its operating and distribution
platforms, the results of which would directly affect its operations in Thailand. This
extended decisionmaking, which was reported in the March 2011 OIG inspection
report, continued to have a negative effect on morale, particularly at the transmitting
stations in Udorn and Patchi.
Responsible entities in both Washington and Thailand had complied with the major-
ity of the recommendations in the 2011 inspection report. However, OIG reissued a
recommendation to confirm that the plans for the transmitting station comply with
U.S. and Thai laws and regulations and on other outstanding procedural issues.

Review of Broadcasting Board of Governors Operations in Nairobi, Kenya
(ISP-IB-12-40)
OIG found no serious management problems at the Voice of America Nairobi News
Bureau. Security at the facility was at or above standards and the BBG Office of
Security was scheduled to visit the bureau within a month after the OIG inspection
to complete the remaining upgrades from its previous survey. OIG made recommen-
dations to improve administrative support services and to strengthen management
controls.

Inspection of Radio Free Europe/Radio Liberty Prague (ISP-IB-12-43)
Radio Free Europe/Radio Liberty (RFE/RL) Prague was facing a period of budget
challenges, resource pressures, and organizational restructuring that was adversely
affecting the staff’s morale. RFE/RL’s language services had adopted new ways to
reach audiences, including using the Internet, social media, and receiving input from
audience members acting as citizen journalists. Its technology division was creative
and a source of cost-saving innovations that benefited the broader BBG organization.
Senior management was appropriately focused on operational issues and morale; OIG
made recommendations to improve these issues and communication, security, and
emergency preparedness.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   81
     Inspection of the International Broadcasting Bureau’s Regional Office of
     Marketing and Program Placement in Prague, Czech Republic (ISP-IB-12-44)
     The director of the International Broadcasting Bureau’s Regional Office of
     Marketing and Program Placement in Prague, Czech Republic (OMPP-Prague)
     provided strong organizational direction to a dedicated staff. Located in the head-
     quarters of RFE/RL, OMPP-Prague maintained a good relationship with RFE/RL and
     worked closely on affiliate lease agreements, and with Embassy Prague, from which
     it received reliable administrative support. OMPP-Prague also had good internal
     controls and administrative procedures in place. OMPP-Prague’s location near the
     affiliates provided the opportunity for the office and its satellite marketing contractors
     to observe and recognize emerging consumer and media trends. The deputy director
     position was vacant and unlikely to be filled due to budget constraints.
     OIG made informal recommendations addressing minor operational deficiencies in
     human resources, procurement, and information technology.




82   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
APPENDIX 1: INVESTIGATIVE
ACTIVITIES

              Preliminary Inquiries
               Opened                                                        1
               Closed                                                        2
              Investigations
               Opened                                                        3
               Closed                                                        2
               Pending (9/30/12)                                             3
              Criminal Actions
               Referrals for Prosecution                                     0
               Indictments/Informations                                      0
               Convictions                                                   0
               Sentencings (Months Imprisonment)                             0
               Sentencings (Months Probation)                                0
               Declinations                                                  0
              Civil Actions
               Civil Referrals                                               0
               Civil Judgments                                               0
               Civil Declinations                                            0
              Administrative Referrals
               Referrals for Personnel Action                                0
               Suitability Referrals to DS                                   0
               Contractor Suspension/Debarment Referrals to OPE              0
              Administrative Actions
               Removals                                                      0
               Suspensions                                                   0
               Reprimand/Admonishments                                       0
               Contractor/Grantees Suspended                                 0
               Contractor/Grantees Debarred                                  0
               Contractor/Grantees High Risk                                 0
              Monetary Recoveries
               Criminal Fines/Recoveries                                    $0
               Civil Recoveries                                             $0
               Administrative Recoveries                                    $0
               Total Investigative Recoveries                               $0




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   83
84   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
APPENDIX 2: REPORTS ISSUED


 Report Number          Report Title

 ISP-IB/C-12-34         Compliance Followup Review of Broadcasting Board of Governor’s
                        Operations, Thailand
 ISP-IB-12-40           Review of Broadcasting Board of Governors Operations in Nairobi, Kenya
 ISP-IB-12-43           Inspection of Radio Free Europe/Radio Liberty Prague
 ISP-IB-12-44           Inspection of the International Broadcasting Bureau’s Regional Office of
                        Marketing and Program Placement in Prague, Czech Republic




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012      85
86   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES


TABLE 1: INSPECTOR GENERAL ISSUED REPORTS WITH
QUESTIONED COSTS

                                                      Number      Questioned      Unsupported
                                                        of      Costs (Dollars   Costs (Dollars
 Type of Report                                       Reports   in Thousands)    in Thousands)

 A.   For which no management decision has been         0            $0               $0
      made by the commencement of the reporting
      period

 B.   Which were issued during the reporting period     0            $0               $0

      Subtotals (A + B)                                 0            $0               $0

 C.   For which a management decision was made
      during the reporting period based on formal
      administrative or judicial appeal
      (i) dollar value of disallowed costs              0            $0               $0
      (ii) dollar value of costs not disallowed         0            $0               $0

 D.   For which no management decision has been         0            $0               $0
      made by the end of the reporting period
      Reports for which no management decision          0            $0               $0
      was made within 6 months of issuance




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012     87
     TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                      Number          Dollars
      Type of Report                                                 of Reports   (in Thousands)

      A.   For which no management decision has been made by             0             $0
           the commencement of the reporting period

      B.   Which were issued during the reporting period                 0             $0

           Subtotals (A + B)                                             0             $0

      C.   For which a management decision was made during the
           reporting period
           (i) dollar value of recommendations that were agreed to       0             $0
               by management
               – based on proposed management action
               – based on proposed legislative action
           (ii) dollar value of recommendations that were not            0             $0
                agreed to by management

      D.   For which no management decision has been made by             0             $0
           the end of the reporting period

           Reports for which no management decision was made             0             $0
           within 6 months of issuance




88   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS

SIGNIFICANT AUDIT RECOMMENDATIONS PENDING FINAL
ACTION
None.


SUMMARY OF OFFICE OF AUDITS REPORTS WITHOUT
MANAGEMENT DECISION FOR MORE THAN SIX MONTHS
None.


REVISED MANAGEMENT DECISIONS
None.


MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
RECOMMENDATIONS
None.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   89
90   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
CONGRESSIONAL AND PUBLIC
AFFAIRS ACTIVITIES


TESTIMONY AND BRIEFINGS
    •	 On April 17, 2012, Deputy Inspector General Harold W. Geisel testified
       before the Senate Committee on Homeland Security and Government Affairs
       Ad Hoc Subcommittee on Contracting Oversight. The subject of the hearing
       was “Effects on Inspector General Oversight of S. 2139, the ‘Comprehensive
       Contingency Contracting Reform Act of 2012.’” The Subcommittee sought
       input from statutory inspectors general involved in contingency operations to
       help ensure the Senate bill provided the tools necessary to provide compre-
       hensive and effective oversight.
    •	 On June 28, 2012, Deputy Inspector General Geisel testified before the
       House Committee on Oversight and Government Reform. The title of the
       hearing was “Assessment of the Transition from a Military to a Civilian-Led
       Mission in Iraq.” Deputy Inspector General Geisel provided an overview of
       Inspector General oversight in Iraq, including findings from its reports on
       police training, the Office of Security Cooperation, provincial posts, security,
       air transportation operations, medical care, emergency action plans, and facil-
       ity requirements.
During this reporting period, OIG’s briefings to congressional staff included the
following:
    •	 Senate Committee on Foreign Relations: A briefing provided by the
       authors of OIG’s Embassy Nairobi report (ISP-I-12-38A, August 2012). In
       addition to the management issues cited in the report, the Leahy vetting issue
       and the matter of diplomatic status for USAID and other U.S. Government
       staff also were discussed. In addition, on September 24, 2012, staffers for
       the committee were given a briefing on the Joint Strategic Oversight Plan for
       Afghanistan. Deputy Assistant Inspector General for Middle East Region
       Operations (DAIG/MERO) Carol Gorman represented OIG, joining
       colleagues from SIGAR, DOD OIG, and USAID OIG.
    •	 Senate Committee on Homeland Security and Government Affairs: A
       briefing provided by Audit Director Richard Astor, as well as representa-
       tives from contracted auditors with Kearney & Company, on the Audit of
       Contracting Officers Exceeding Delegated Procurement Authority for Overseas


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   91
             Contract Awards (AUD/CG-12-33, June 2012). Issues discussed included
             information about the controls that will be implemented, the failure of the
             previous system without monitoring controls, and the ratification process.
         •	 House Committee on Foreign Affairs: A briefing provided by the audit
            manager of OIG’s Audit of Bureau of Oceans and International Environmental
            and Scientific Affairs Administration and Oversight of Funds Dedicated To
            Address Global Climate Change (AUD/CG-12-40, July 2012). Issues related to
            data quality assessments and grant officer representatives were discussed.
         •	 House Committee on Oversight and Government Reform: A briefing
            provided by Assistant Inspector General for Audits Evelyn R. Klemstine and
            DAIG/MERO Carol Gorman on oversight work related to the embassy in
            Baghdad, the Baghdad Master Plan, the current OIG footprint in Iraq, and
            the current plan for rightsizing to ensure continued, comprehensive oversight
            of U.S. Mission Iraq programs and operations.



     CONGRESSIONAL MANDATES AND REQUESTS
     On June 13, 2012, OIG received a request from Representatives Michele Bachmann,
     Trent Franks, Louie Gohmert, Thomas Rooney, and Lynn Westmoreland to review
     “Department of State policies and activities that appear to be a result of influence
     operations conducted by individuals and organizations associated with the Muslim
     Brotherhood.” Similar letters of inquiry were sent to inspectors general for the Office
     of the Director of National Intelligence, the Department of Defense, the Department
     of Homeland Security, and the Department of Justice.
     On August 3, 2012, OIG received a letter from Representative Darrell Issa,
     Chairman of the House Committee on Oversight and Government Reform, asking
     for more information about OIG’s reporting practices to Congress and whether there
     have ever been instances when serious problems were not shared with lawmakers.
     This letter was sent to all 73 Federal Government inspectors general.
     On September 17, 2012, OIG received a letter from Senator Joseph Lieberman,
     Chairman of the Senate Committee on Homeland Security and Government Affairs,
     and Senator Susan Collins, Ranking Member on the Committee, requesting that
     OIG “conduct a thorough investigation of the Department’s development of security
     requirements for the Benghazi Consulate, as well as the resource decision-making
     process to provide security for this post.” In its response, OIG noted its oversight
     responsibility for the Accountability Review Board process, the mechanism required
     by the Omnibus Diplomatic Security and Antiterrorism Act, to review such issues
     and its preparation of a scope of work to examine embassy security worldwide, in
     light of the attacks in Benghazi and other incidents at U.S. diplomatic facilities.



92   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
As mandated by the Chief Financial Officers Act of 1990 (Public Law 101-576, as
amended), OIG directed and monitored the following financial statement audit:
    •	 Independent Auditor’s Report on the International Boundary and Water
       Commission, United States and Mexico, U.S. Section, 2011 and 2010 Financial
       Statements (AUD/FM-12-37, June 2012).
As mandated by the Federal Information Security Management Act of 2002
(FISMA) (44 U.S.C. § 3545), OIG issued the following classified report, which is
included in the Classified Annex:
    •	 Evaluation of the Information Security Program for Sensitive Compartmented
       Information Systems at the Department of State for FY 2012



LEGISLATION MONITORED
OIG monitored the following legislation during the reporting period:
    •	 Continuing Appropriations Act, FY 2012 – Public Law 112-36.
    •	 Department of State, Foreign Operations, and Related Programs Appropriations
       Act, 2013, S.3241 (pending).
    •	 Department of State, Foreign Operations, and Related Programs Appropriations
       Act, 2013, H.R.5857 (pending).
    •	 Senate Foreign Relations Authorization Act for Fiscal Years 2012-13 (pending).
    •	 Foreign Relations Authorization Act, Fiscal Years 2012, Section 201, H.R. 2583
       (pending).



MEDIA RELATIONS AND OUTREACH
During this semiannual reporting period, OIG made its reports available to the
media and other interested parties, both directly and online through regular postings
on its public Web site (http://oig.state.gov). OIG sent out more than 80 announce-
ments through its Twitter account, “tweeting” to a base of more than 1,200 “follow-
ers” when new reports or jobs were posted or when OIG participated in a congressio-
nal hearing. The site also has more than 6,000 users signed up to receive alerts when
new material is posted.
OIG continues to improve its Web sites, responding to user feedback to enhance util-
ity and performance. Recent enhancements include the addition of “keys” to under-
standing the report numbering protocol and Freedom of Information Act exemption


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   93
     redactions, internal links to related reports, a reformatting of the homepage, and
     additional links to partner agencies and organizations such as the Web site for the
     Special Inspector General for Afghanistan Reconstruction. Internal SharePoint site
     enhancements included the addition of several new Innovative Practice case studies,
     new OIG Activities photo slide shows, and enhanced Web metrics (updates posted
     monthly)
     Media expressed interest in a broad range of OIG activities and initiatives, resulting
     in 33 direct responses to 21 different issues. Listed in order of interest, the issues that
     drew the greatest number of media inquiries were the following:
         •	 OIG’s response to a congressional inquiry from Reps. Bachmann, Frank,
            Gohmert, Rooney, and Westmoreland regarding “Department of State
            policies and activities that appear to be the result of influence operations
            conducted by individuals and organizations associated with the Muslim
            Brotherhood.”
         •	 OIG’s response to a congressional request from Sens. Lieberman and Collins
            to “conduct a thorough investigation of the Department’s development of
            security requirements for the Benghazi Consulate, as well as the resource
            decision-making process to provide security for this post.”
         •	 OIG’s comments on a hearing by the House Committee on Oversight and
            Government Reform, Where Are All the Watchdogs? Addressing Inspector
            General Vacancies.
         •	 Inspection of Embassy Nairobi, Kenya (ISP-I-12-38A, August 2012).
     Additional inquiries included the status and findings of OIG’s Special Review of the
     Keystone XL Pipeline Permit Process (AUD/ SI-12-28, February, 2012); Compliance
     Followup Review of Embassy Islamabad and Constituent Posts, Pakistan (ISP-C-12-28A,
     May 2012); Management Letter Related to the Audit of the International Boundary and
     Water Commission, United States and Mexico, U.S. Section, 2011 and 2012 Financial
     Statements (AUD-FM-12-38); Inspection of the Bureau of Information Resource
     Management, Systems and Integration Office (ISP-I-12-30, June 2012); general infor-
     mation about OIG oversight of American Recovery and Reinvestment Act funds;
     information about OIG’s online/interactive Innovative Practices initiative; inquiries
     regarding the contractor suspension and debarment process; and several inquiries
     about possible OIG investigations.
     Foreign Delegations: OIG regularly meets with officials from around the world to
     discuss a range of issues related to government oversight. During the latest reporting
     period, OIG met with representatives from Jamaica and the Board of Audit of Japan,
     as well as analysts from the Congressional Research Service.




94   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
AMERICAN RECOVERY AND REINVESTMENT ACT
In 2009, OIG received $2 million in funding under the American Recovery and
Reinvestment Act (ARRA) to provide oversight of ARRA funds and implementa-
tion of ARRA projects by the Department of State and the International Boundary
and Water Commission, United States and Mexico, U.S. Section (IBWC). OIG’s
ARRA funding expired on September 30, 2010. Between October 2009 and June
2012, OIG initiated 26 projects to assess Department and IBWC activities funded
by ARRA funds. OIG audits and reviews of the Department’s use of ARRA funds
resulted in 25 reports issued, and recommendations identifying $26,127 in ques-
tioned costs and $7,574,883 in potential funds put to better use.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   95
96   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
ABBREVIATIONS

 Abbreviation         Full Name

 A                    Bureau of Administration
 AIP                  Afghanistan, Iraq, and Pakistan
 AIT                  American Institute in Taiwan
 AIT/Taiwan           American Institute in Taiwan – Taiwan office
 AIT/Washington       American Institute in Taiwan – Washington office
 ALS                  Office of Allowances
 A/OPE                Office of the Procurement Executive, Bureau of Administration
 APP                  American presence posts
 BBG                  Broadcasting Board of Governors
 CA                   Bureau of Consular Affairs
 CA/OCS               Bureau of Consular Affairs, Directorate of Overseas Citizens Services
 CCD                  Consolidated Consular Database
 CI                   Office of Children’s Issues
 CIVPOL               Civilian Police
 CO                   Contracting Officer
 CSSP                 Corrections System Support Program
 CT                   Bureau of Counterterrorism
 CTI                  Consular Team India
 DAIG/MERO            Deputy Assistant Inspector General for Middle East Region Operations
 DCAA                 Defense Contract Audit Agency
 DCM                  deputy chief of mission
 Department           Department of State
 DoD                  Department of Defense
 DS/T/ATA             Bureau of Diplomatic Security Office of Antiterrorism Assistance
 ECA                  Bureau for Educational and Cultural Affairs
 EUR                  Bureau of European and Eurasian Affairs
 FMO                  Fleet Management and Operations Division
 FHA                  Federal Housing Administration
 IBB                  International Broadcasting Bureau
 IG                   Inspector General
 INL                  Bureau of International Narcotics and Law Enforcement Affairs




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012   97
      Abbreviation         Full Name

      IPS                  Bureau of Administration, Global Information Services, Office of Information
                           Programs and Services
      IRI                  International Republican Institute
      IRM                  Bureau of Information Resource Management
      L                    Office of the Legal Adviser
      J/TIP                Office to Monitor and Combat Trafficking in Persons
      NATO                 North Atlantic Treaty Organization
      NIV                  Non-immigrant visa
      OECD                 Organization for Economic Cooperation and Development
      OES                  Bureau of Oceans and International Environmental and Scientific Affairs
      OIG                  Office of Inspector General
      OMB                  Office of Management and Budget
      OMPP-Prague          Regional Office of Marketing and Program Placement in Prague, Czech Republic
      P                    Planning, Programs, and Systems Liaison division
      PAE                  Pacific Architects and Engineers
      PEPFAR               President’s Emergency Fund for AIDS Relief
      PRI                  Office of Policy Review and Interagency Liaison
      RFE/RL               Radio Free Europe/Radio Liberty
      SCA                  Bureau of South Central Asian Affairs
      SIGAR                Special Inspector General for Afghanistan Reconstruction
      SIGIR                Special Inspector General for Iraq Reconstruction
      SIO                  Systems and Integrations Office
      SPOG                 Senior Policy Operating Group
      TIP                  trafficking in persons
      TVPA                 Trafficking Victims Protection Act
      UNESCO               U.S. Missions to the United National Educational, Scientific, Cultural
                           Organization
      USAID                United States Agency for International Development
      USIBWC               International Boundary and Water Commission, United States and Mexico,
                           U.S. Section
      USIP                 United States Institute of Peace




98   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1 TO SEPTEMBER 30, 2012
                   Index of Reporting Requirements
          Inspector General Act of 1978, as amended

Requirement            Subject                                                     Page Number(s)

Section 4(a)(2)        Review of legislation and regulations                             93

Section 5(a)(1)        Summary of Significant problems, abuses, and deficiencies         3-7

Section 5(a)(2)        Significant recommendations for corrective action              57-63, 89

Section 5(a)(3)        Prior significant recommendations unimplemented               57-63, 66-68

Section 5(a)(4)        Matters referred to prosecutive authorities                      43-45

Section 5(a)(5)        Information or assistance refused                                none

Section 5(a)(6)        List of reports issued                                         49-51, 85

Section 5(a)(7)        Summaries of significant reports                              11-41, 81-82

Section 5(a)(8)        Reports – questioned costs                                       53, 87

Section 5(a)(9)        Reports – funds to be put to better use                        54-55, 88

Section 5(a)(10)       Prior reports unresolved                                       68-70, 89

Section 5(a)(11)       Significant revised management decisions                         70, 89

Section 5(a)(12)       Significant management decisions with which OIG disagreed        none

Section 5(a)(14)       Peer review results                                               75

Section 5(a)(15)(16)   Status of peer review recommendations                             75
    UNITED STATES DEPARTMENT OF STATE
AND THE BROADCASTING BOARD OF GOVERNORS
       OFFICE OF INSPECTOR GENERAL
